1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
IN RE FACEBOOK, INC. INTERNET
TRACKING LITIGATION,
PERRIN AIKENS DAVIS; BRIAN K.
LENTZ; CYNTHIA D. QUINN; MATTHEW J. VICKERY,
Plaintiffs-Appellants,

No. 17-17486
D.C. No.
5:12-md-02314EJD
OPINION

v.
FACEBOOK, INC.,
Defendants-Appellee.
Appeal from the United States District Court
for the Northern District of California
Edward J. Davila, District Judge, Presiding
Argued and Submitted April 16, 2019
San Francisco, California
Filed April 9, 2020
Before: Sidney R. Thomas, Chief Judge, Milan D.
Smith, Jr., Circuit Judge, and Katherine H. Vratil*,
District Judge.
Opinion by Chief Judge Thomas

The Honorable Kathryn H. Vratil, United States District Judge
for the District of Kansas, sitting by designation.

*

2a
SUMMARY**
Standing / Privacy Law
The panel affirmed the district court’s dismissal of
the Stored Communications Act (“SCA”), breach of
contract, and breach of implied covenant claims; reversed the dismissal of the remaining claims; and remanded for further consideration, in an action alleging privacy-related claims against Facebook, Inc.
Facebook uses plug-ins to track users’ browsing
histories when they visit third-party websites, and
then complies these browsing histories into personal
profiles which are sold to advertisers to generate revenue. Plaintiffs filed an amended complaint on behalf
of themselves and a putative class of people who had
active Facebook accounts between May 27, 2010 and
September 26, 2011. They alleged that Facebook executives were aware of the tracking of logged-out users and recognized that these practices posed various
user-privacy issues.
As an initial matter, the panel held that plaintiffs
had standing to bring their claims. Specifically, the
panel held that plaintiffs adequately alleged an invasion of a legally protected interest that was concrete
and particularized. As to the statutory claims, the
panel held that the legislative history and statutory
**

This summary constitutes no part of the opinion of the court.
It has been prepared by court staff for the convenience of the
reader.

3a
text demonstrated that Congress and the California
legislature intended to protect these historical privacy rights when they passed the Wiretap Act, SCA,
and the California Invasion of Privacy Act (“CIPA”).
In addition, plaintiffs adequately alleged that Facebook’s tracking and collection practices would cause
harm or a material risk to their interest in controlling
their personal information. Accordingly, plaintiffs
sufficiently alleged a clear invasion of their right to
privacy, and plaintiffs had standing to pursue their
privacy claims under these statutes.
As to plaintiffs’ alleged theories of California common law trespass to chattels and fraud, statutory larceny, and violations of the Computer Data Access and
Fraud Act, the panel held that plaintiffs sufficiently
alleged a state law interest whose violation constituted an injury sufficient to establish standing to
bring their claims. Because California law recognizes
a legal interest in unjustly earned profits, plaintiffs
adequately pled an entitlement to Facebook’s profits
from users’ data sufficient to confer Article III standing. Plaintiffs also sufficiently alleged that Facebook
profited from this valuable data.
Turning to the merits, the panel held that plaintiffs adequately stated claims for relief for intrusion
upon seclusion and invasion of privacy under California law. First, the panel held that in light of the privacy interests and Facebook’s allegedly surreptitious
and unseen data collection, plaintiffs adequately alleged a reasonable expectation of privacy to survive a
Fed. R. Civ. P. 12(b)(6) motion to dismiss. Second,
plaintiffs identified sufficient facts to survive a motion to dismiss on the ultimate question of whether

4a
Facebook’s tracking and collection practices could
highly offend a reasonable individual.
The panel held that plaintiffs sufficiently alleged
that Facebook’s tracking and collection practices violated the Wiretap Act and CIPA. Both statutes contain an exemption from liability for a person who is a
“party” to the communication. Noting a circuit split,
the panel adopted the First and Seventh Circuits’ understanding that simultaneous unknown duplication
and communication of GET requests did not exempt
Facebook from liability under the party exception.
The panel concluded that Facebook was not exempt
from liability as a matter of law under the Wiretap
Act or CIPA, and did not opine whether plaintiffs adequately pleaded the other requisite elements of the
statutes.
The panel held that the district court properly dismissed plaintiffs’ claims under the SCA, which required plaintiffs to plead that Facebook gained unauthorized access to a “facility” where it accessed electronic communications in “electronic storage.” The
panel agreed with the district court’s determination
that plaintiffs’ data was not in electronic storage. The
panel concluded that plaintiffs’ claims for relief under
the SCA were insufficient.
The panel held that the district court properly dismissed plaintiffs’ breach of contract claim for failure
to state a claim. Plaintiffs alleged that Facebook entered into a contract with each plaintiff consisting of
the Statement of Rights and Responsibilities, Privacy
Policy, and relevant Help Center pages. The panel

5a
held that plaintiffs failed to adequately allege the existence of a contract that was subject to breach. The
panel also held that the district court properly dismissed plaintiffs’ claim that Facebook’s tracking practices violated the implied covenant of good faith and
fair dealing, where the allegations did not go beyond
the asserted breach of contract theories.
COUNSEL
David A. Straite (argued), Frederic S. Fox, and
Ralph E. Labaton, Kaplan Fox & Kilsheimer LLP,
New York, New York; Laurence D. King, Matthew
George, and Mario M. Choi, Kaplan Fox & Kilsheimer
LLP, San Francisco, California; Stephen G. Grygiel,
Silverman Thompson Slutkin White LLC, Baltimore,
Maryland; for Plaintiffs-Appellants.
Lauren R. Goldman (argued) and Michael Rayfield, Mayer Brown LLP, New York, New York; Matthew D. Brown, Cooley LLP, San Francisco, California; for Defendant- Appellee.
Marc Rotenberg, Alan Butler, Natasha Babazadeh, and Sam Lester, Electronic Privacy Information
Center, Washington, D.C., for Amicus Curiae Electronic Privacy Information Center (EPIC).
Douglas Laycock, University of Virginia Law
School, Charlottesville, Virginia; Steven W. Perlstein,
Kobre & Kim LLP, New York, New York; Beau D.
Barnes, Kobre & Kim LLP, Washington, D.C.; for
Amicus Curiae Professor Douglas Laycock.

6a
OPINION
THOMAS, Chief Judge:
In this appeal, we are asked to determine whether:
(1) Facebook-users Perrin Davis, Brian Lentz, Cynthia Quinn, and Mathew Vickery (“Plaintiffs”) have
standing to allege privacy-related claims against Facebook, and (2) Plaintiffs adequately allege claims
that Facebook is liable for common law and statutory
privacy violations when it tracked their browsing histories after they had logged out of the Facebook application. We have jurisdiction pursuant to 28 U.S.C. §
1291. We affirm in part; reverse in part; and remand
for further proceedings.
I
Facebook uses plug-ins1 to track users’ browsing
histories when they visit third-party websites, and
then compiles these browsing histories into personal
profiles which are sold to advertisers to generate revenue. The parties do not dispute that Facebook engaged in these tracking practices after its users had
logged out of Facebook.
Facebook facilitated this practice by embedding
third-party plug-ins on third-party web pages. The
plug-ins, such as Facebook’s “Like” button, contain
bits of Facebook code. When a user visits a page that
includes these plug-ins, this code is able to replicate

A plug-in is a program that extends the functionality of an existing program, such as an internet browser.

1

7a
and send the user data to Facebook through a separate, but simultaneous, channel in a manner undetectable by the user.
As relevant to this appeal, the information Facebook allegedly collected included the website’s Uniform Resource Locator (“URL”) that was accessed by
the user. URLs both identify an internet resource and
describe its location or address. “[W]hen users enter
URL addresses into their web browser using the ‘http’
web address format, or click on hyperlinks, they are
actually telling their web browsers (the client) which
resources to request and where to find them. In re
Zynga Privacy Litig., 750 F.3d 1098, 1101 (9th Cir.
2014). Thus, the URL provides significant information regarding the user’s browsing history, including the identity of the individual internet user and the
web server, as well as the name of the web page and
the search terms that the user used to find it. In technical parlance, this collected URL is called a “referer
header” or “referer.” Facebook also allegedly collected
the third-party website’s Internet Protocol (“IP”) address,2 which reveals only the owner of the website.
Facebook allegedly compiled the referer headers it
collected into personal user profiles using “cookies”—
small text files stored on the user’s device. When a
user creates a Facebook account, more than ten Facebook cookies are placed on the user’s browser. These
cookies store the user’s login ID, and they capture, collect, and compile the referrer headers from the web
An “IP address” is a numerical identifier for each computer or
network connected to the Internet. hiQ labs, Inc. v. LinkedIn
Corp., 938 F.3d 985, 991 n.4 (9th Cir. 2019).

2

8a
pages visited by the user. As most relevant to this appeal, these cookies allegedly continued to capture information after a user logged out of Facebook and visited other websites.
Plaintiffs claim that internal Facebook communications revealed that company executives were aware
of the tracking of logged-out users and recognized that
these practices posed various user-privacy issues. According to the Plaintiffs, Facebook stopped tracking
logged-out users only after Australian blogger Nik
Cubrilovic published a blog detailing Facebook’s
tracking practices.3
Plaintiffs filed a consolidated complaint on behalf
of themselves and a putative class of people who had
active Facebook accounts between May 27, 2010 and
September 26, 2011. After the district court dismissed
their first complaint with leave to amend, Plaintiffs
filed an amended complaint. In the amended complaint, they alleged a number of claims. The claims
relevant to this appeal consist of: (1) violation of the
Wiretap Act, 18 U.S.C. § 2510, et seq.; (2) violation of
the Stored Communications Act (“SCA”), 18 U.S.C. §
2701; (3) violation of the California Invasion of Privacy Act (“CIPA”), Cal. Pen. Code §§ 631, 632; (4) invasion of privacy; (5) intrusion upon seclusion; (6)
breach of contract; (7) breach of the duty of good faith

The blog post quickly gained notoriety and played a role in a
lawsuit that alleged multiple counts of deceptive trade practices
brought against Facebook by the Federal Trade Commission. In
the Matter of Facebook Inc., FTC File No. 0923184. Facebook
reached a settlement with the FTC in November 2011.

3

9a
and fair dealing; (8) civil fraud; (9) trespass to chattels; (10) violations of California Penal Code § 502
Computer Data Access and Fraud Act (“CDAFA”);
and (11) statutory larceny under California Penal
Code §§ 484 and 496.
The district court granted Facebook’s motion to
dismiss the amended complaint. First, the district
court determined that Plaintiffs had failed to show
they had standing to pursue claims that included economic damages as an element, thus disposing of the
claims for trespass to chattels, violations of the
CDAFA, fraud, and statutory larceny. It dismissed
these claims without leave to amend.
The district court also dismissed for failure to state
a claim, without leave to amend, Plaintiffs’ claims for
violations of the Wiretap Act, CIPA, and the SCA, as
well as their common law claims for invasion of privacy and intrusion upon seclusion. The district court
dismissed the claims for breach of contract and the
breach of the implied covenant of good faith and fair
dealing, but granted leave to amend these claims. In
response, Plaintiffs amended their complaint as to the
breach of contract and implied covenant claims. The
district court subsequently granted Facebook’s motion to dismiss the amended claims. This timely appeal followed.
We review de novo a district court’s determination
of whether a party has standing. San Luis & DeltaMendota Water Auth. v. United States, 672 F.3d 676,
699 (9th Cir. 2012). We review de novo dismissals for
failure to state a claim under Rule 12(b)(6). Dougherty
v. City of Covina, 654 F.3d 892, 897 (9th Cir. 2011).

10a
II
The Plaintiffs have standing to bring their claims.
“Where standing is raised in connection with a motion
to dismiss, the court is to ‘accept as true all material
allegations of the complaint, and . . . construe the complaint in favor of the complaining party.’” Levine v.
Vilsack, 587 F.3d 986, 991 (9th Cir. 2009) (quoting
Thomas v. Mundell, 572 F.3d 756, 760 (9th Cir.
2009)).
To establish standing, a “[p]laintiff must have (1)
suffered an injury in fact, (2) that is fairly traceable
to the challenged conduct of the defendant, and (3)
that is likely to be redressed by a favorable judicial
decision.” Spokeo v. Robins, __ U.S. __, 136 S. Ct.
1540, 1547 (2016). To establish an injury in fact, a
plaintiff must show that he or she suffered “an invasion of a legally protected interest” that is “concrete
and particularized.” Id. at 1548 (quoting Lujan v.
Defs. of Wildlife, 504 U.S. 555, 560 (1992)). A particularized injury is one that affects the plaintiff in a “personal and individual way.” Id.; see also Dutta v. State
Farm Mutual Auto. Ins. Co., 895 F.3d 1166, 1173 (9th
Cir. 2018).
A concrete injury is one that is “real and not abstract.” Spokeo, 136 S.Ct. at 1548 (internal quotation
marks omitted). Although an injury “must be ‘real’
and ‘not abstract’ or purely ‘procedural’ . . . it need not
be ‘tangible.’” Dutta, 895 F.3d at 1173. Indeed, though
a bare procedural violation of a statute is insufficient
to establish an injury in fact, Congress may “elevat[e]
to the status of legally cognizable injuries concrete, de

11a
facto injuries that were previously inadequate” to confer standing. Spokeo, 136 S. Ct. at 1549 (quoting
Lujan, 504 U.S. at 578).
To determine whether Congress has done so, we
ask whether: (1) “Congress enacted the statute at issue to protect a concrete interest that is akin to a historical, common law interest[,]” and (2) the alleged
procedural violation caused real harm or a material
risk of harm to these interests. Dutta, 895 F.3d at
1174.
A
The district court properly concluded that Plaintiffs had established standing to bring claims for invasion of privacy, intrusion upon seclusion, breach of
contract, breach of the implied covenant of good faith
and fair dealing, as well as claims under the Wiretap
Act and CIPA, because they adequately alleged privacy harms.
Plaintiffs have adequately alleged an invasion of a
legally protected interest that is concrete and particularized. “[V]iolations of the right to privacy have long
been actionable at common law.” Patel v. Facebook,
932 F.3d 1264, 1272 (9th Cir. 2019) (quoting Eichenberger v. ESPN, Inc., 876 F.3d 979, 983 (9th Cir.
2017)). A right to privacy “encompass[es] the individual’s control of information concerning his or her person.” Eichenberger, 876 F.3d at 983 (quoting U.S.
Dep’t of Justice v. Reporters Comm. for Freedom of the
Press, 489 U.S. 749, 763 (1989)).
As to the statutory claims, the legislative history
and statutory text demonstrate that Congress and the

12a
California legislature intended to protect these historical privacy rights when they passed the Wiretap Act,
SCA, and CIPA. See S. REP. NO. 99-541, at 2 (1986)
(“[The Wiretap Act] is the primary law protecting the
security and privacy of business and personal communications in the United States today.”); Id. at 3 (“[The
SCA] is modeled after the Right to Financial Privacy
Act, 12 U.S.C. § 3401 et seq. to protect privacy interests in personal and proprietary information . . . .”);
Cal. Pen. Code § 630 (noting that CIPA was passed “to
protect the right of privacy of the people of this state”).
Thus, these statutory provisions codify a substantive
right to privacy, the violation of which gives rise to a
concrete injury sufficient to confer standing. See
Campbell v. Facebook, Inc., —F.3d—, 2020 WL
1023350, at *7–8 (9th Cir. Mar. 3, 2020).
Plaintiffs have adequately alleged harm to these
privacy interests. Plaintiffs alleged that Facebook
continued to collect their data after they had logged
off the social media platform, in order to receive and
compile their personally identifiable browsing history. As alleged in the complaint, this tracking occurred “no matter how sensitive” or personal users’
browsing histories were. Facebook allegedly constantly compiled and updated its database with its users’ browsing activities, including what they did when
they were not using Facebook. According to Plaintiffs,
by correlating users’ browsing history with users’ personal Facebook profiles—profiles that could include a
user’s employment history and political and religious
affiliations—Facebook gained a cradle-to-grave profile without users’ consent.

13a
Here, Plaintiffs have adequately alleged that Facebook’s tracking and collection practices would cause
harm or a material risk of harm to their interest in
controlling their personal information. As alleged, Facebook’s tracking practices allow it to amass a great
degree of personalized information. Facebook’s user
profiles would allegedly reveal an individual’s likes,
dislikes, interests, and habits over a significant
amount of time, without affording users a meaningful
opportunity to control or prevent the unauthorized exploration of their private lives.
“[A]dvances in technology can increase the potential for unreasonable intrusions into personal privacy.” Patel, 932 F.3d at 1272. As the Third Circuit
has noted, “[i]n an era when millions of Americans
conduct their affairs increasingly through electronic
devices, the assertion . . . that federal courts are powerless to provide a remedy when an internet company
surreptitiously collects private data . . . is untenable.
Nothing in Spokeo or any other Supreme Court decision suggests otherwise.” In re Google Inc. Cookie
Placement Consumer Privacy Litig., 934 F.3d 316, 325
(3rd Cir. 2019) (“In re Google Cookie”).
Accordingly, Plaintiffs have sufficiently alleged a
clear invasion of the historically recognized right to
privacy. Therefore, Plaintiffs have standing to pursue
their privacy claims under the Wiretap Act, SCA, and
CIPA, as well as their claims for breach of contract
and breach of the implied covenant of good faith and
fair dealing.

14a
B
Plaintiffs also alleged theories of California common law trespass to chattels and fraud, statutory larceny, and violations of the CDAFA. The district court
dismissed these claims for lack of standing, concluding that the Plaintiffs failed to demonstrate that they
had suffered the economic these claims.4 We respectfully disagree.
Plaintiffs allege that Facebook is unjustly enriched through the use of their data. Facebook argues
that unjust enrichment is not sufficient to confer
standing, and that Plaintiffs must instead demonstrate that they either planned to sell their data, or
that their data was made less valuable through Facebook’s use. They similarly assert that Plaintiffs’ entitlement to damages does not constitute an injury for
purposes of standing.
However, “state law can create interests that support standing in federal courts.” Cantrell v. City of
Long Beach, 241 F.3d 674, 684 (9th Cir. 2001). As relevant here, California law recognizes a right to disTo prevail on a claim for trespass to chattels, Plaintiffs must
demonstrate that some actual injury may have occurred and that
the owner of the property at issue may only recover the actual
damages suffered as a result of the defendant’s actions. Intel
Corp. v. Hamidi, 30 Cal. 4th 1342, 1351–52 (2003). Fraud similarly requires damages, Beckwith v. Dahl, 205 Cal. App. 4th
1039, 1064 (2012), as does a violation of the CDAFA, Mintz v.
Mark Bartelstein & Assocs., 906 F. Supp. 2d 1017, 1032 (C.D.
Cal. 2012) (noting that “[u]nder the plain language of the statute[,]” damages must be established). Damages is an inherent
element of larceny.
4

15a
gorgement of profits resulting from unjust enrichment, even where an individual has not suffered a corresponding loss. See Cty. of San Bernardino v. Walsh,
158 Cal. App. 4th 533, 542 (2007) (noting that where
“a benefit has been received by the defendant but the
plaintiff has not suffered a corresponding loss, or in
some cases, any loss, but nevertheless the enrichment
of the defendant would be unjust . . . [t]he defendant
may be under a duty to give to the plaintiff the
amount by which [the defendant] has been enriched”
(quoting Rest., Restitution, § 1, com. e)); see also
Ghirardo v. Antonioli, 14 Cal. 4th 39, 51 (1996) (“Under the law of restitution, an individual may be required to make restitution if he is unjustly enriched
at the expense of another.”).
In other words, California law requires disgorgement of unjustly earned profits regardless of whether
a defendant’s actions caused a plaintiff to directly expend his or her own financial resources or whether a
defendant’s actions directly caused the plaintiff’s
property to become less valuable. See, e.g., CTC Real
Estate Servs. v. Lepe, 140 Cal. App. 4th 856, 860–61
(2006) (holding that a woman whose identity was stolen and used to obtain later-foreclosed-upon property
was entitled to surplus funds from the sale at auction
because “she was entitled to the product of identity
theft”); Ward v. Taggert, 51 Cal. 2d 736, 742–43 (1959)
(holding that plaintiffs could recover profits unjustly
realized by a real estate agent who misrepresented
the purchase price of real estate, even though the
plaintiffs did not pay more than the land was worth
when they purchased it); cf. Walsh, 158 Cal. App. 4th
at 542–43 (holding that the district court did not err

16a
where it solely relied on profit to the defendants rather than loss to the plaintiffs to calculate damages).
“The ‘gist of the question of standing’ is whether
the plaintiff has a sufficiently ‘personal stake in the
outcome of the controversy.’” Washington v. Trump,
847 F.3d 1151, 1159 (9th Cir. 2017) (quoting Massachusetts v. EPA, 549 U.S. 497, 517 (2007)). Because
California law recognizes that individuals maintain
an entitlement to unjustly earned profits, to establish
standing, Plaintiffs must allege they retain a stake in
the profits garnered from their personal browsing histories because “the circumstances are such that, as
between the two [parties], it is unjust for [Facebook]
to retain it.” McBride v. Boughton, 123 Cal. App. 4th
379, 389 (2004) (emphasis in original) (quoting First
Nationwide Savings v. Perry, 11 Cal. App. 4th 1657,
1662 (1992)). Under California law, this stake in unjustly earned profits exists regardless of whether an
individual planned to sell his or her data or whether
the individual’s data is made less valuable.
Because California law recognizes a legal interest
in unjustly earned profits, Plaintiffs have adequately
pleaded an entitlement to Facebook’s profits from users’ personal data sufficient to confer Article III
standing. Plaintiffs allege that their browsing histories carry financial value. They point to the existence
of a study that values users’ browsing histories at $52
per year, as well as research panels that pay participants for access to their browsing histories.
Plaintiffs also sufficiently allege that Facebook
profited from this valuable data. According to the
complaint, Facebook sold user data to advertisers in

17a
order to generate revenue. Indeed, as alleged, Facebook’s ad sales constituted over 90% of the social media platform’s revenue during the relevant period of
logged-out user tracking.
Plaintiffs’ allegations are sufficient at the pleading
stage to demonstrate that these profits were unjustly
earned. As stated in the complaint, “despite Facebook’s false guarantee to the contrary,” the platform
“charges users by acquiring the users’ sensitive and
valuable personal information” and selling it to advertisers for a profit. Plaintiffs allegedly did not provide
authorization for the use of their personal information, nor did they have any control over its use to
produce revenue. This unauthorized use of their information for profit would entitle Plaintiffs to profits
unjustly earned.
Thus, Plaintiffs sufficiently alleged a state law interest whose violation constitutes an injury sufficient
to establish standing to bring their claims for CDAFA
violations and California common law trespass to
chattels, fraud, and statutory larceny.
III
Plaintiffs adequately stated claims for relief for invasion of privacy, intrusion upon seclusion, breach of
contract, breach of the implied covenant of good faith
and fair dealing, as well as their claims under the
Wiretap Act and CIPA. In order to survive a motion
to dismiss under Federal Rule of Civil Procedure
12(b)(6), the facts alleged must “plausibly give rise to
an entitlement to relief.” Dougherty, 654 F.3d at 897
(quoting Ashcroft v. Iqbal, 556 U.S. 662, 679 (2009)).
At the pleading stage, all allegations of material fact

18a
are taken as true and construed in the light most favorable to the nonmoving party. Id.
A
Plaintiffs adequately stated claims for relief for intrusion upon seclusion and invasion of privacy under
California law. To state a claim for intrusion upon seclusion under California common law, a plaintiff must
plead that (1) a defendant “intentionally intrude[d]
into a place, conversation, or matter as to which the
plaintiff has a reasonable expectation of privacy[,]”
and (2) the intrusion “occur[red] in a manner highly
offensive to a reasonable person.” Hernandez v.
Hillsides, Inc., 47 Cal. 4th 272, 286 (2009).
A claim for invasion of privacy under the California Constitution involves similar elements. Plaintiffs
must show that (1) they possess a legally protected
privacy interest, (2) they maintain a reasonable expectation of privacy, and (3) the intrusion is “so serious . . . as to constitute an egregious breach of the social norms” such that the breach is “highly offensive.”
Id. at 287.
Because of the similarity of the tests, courts consider the claims together and ask whether: (1) there
exists a reasonable expectation of privacy, and (2) the
intrusion was highly offensive. Id. We address both in
turn.
1
The existence of a reasonable expectation of privacy, given the circumstances of each case, is a mixed
question of law and fact. Hill v. NCAA, 7 Cal. 4th 1,

19a
40 (1994). “[M]ixed questions of fact and law are reviewed de novo, unless the mixed question is primarily factual.” N.B. v. Hellgate Elem. Sch. Dist., ex rel.
Bd. of Dirs., Missoula Cty., Mont., 541 F.3d 1202,
1207 (9th Cir. 2008). Here, because we are reviewing
the district court’s legal conclusions, we review de
novo.
We first consider whether a defendant gained “unwanted access to data by electronic or other covert
means, in violation of the law or social norms.” Hernandez, 47 Cal. 4th at 286 (internal quotation marks
omitted). To make this determination, courts consider
a variety of factors, including the customs, practices,
and circumstances surrounding a defendant’s particular activities. Hill, 7 Cal. 4th at 36.
Thus, the relevant question here is whether a user
would reasonably expect that Facebook would have
access to the user’s individual data after the user
logged out of the application. Facebook’s privacy disclosures at the time allegedly failed to acknowledge
its tracking of logged-out users, suggesting that users’
information would not be tracked.
The applicable Facebook Statement of Rights and
Responsibilities (“SRR”) stated:
Your privacy is very important to us. We
designed our Privacy Policy to make important disclosures about how you can use
Facebook to share with others and how we
collect and can use your content and information. We encourage you to read the Privacy Policy, and to use it to make informed
decisions.

20a
SRR, dated April 26, 2011.
Facebook’s applicable Data Use Policy,5 in turn,
stated:
We receive data whenever you visit a
game, application, or website that uses
[Facebook’s services]. This may include
the date and time you visit the site; the
web address, or URL, you’re on; technical
information about the IP address, browser
and the operating system you use; and, if
you are logged in to Facebook, your user
ID.
Data Use Policy, dated September 7, 2011 (emphasis
added).
Finally, Facebook’s “Help Center” at the time included answers to questions related to data tracking.
Most relevantly, one answer from a Help Center page
at the time answered the question “[w]hat information does Facebook receive about me when I visit a
website with a Facebook social plug in?”6 The Help
Center page first stated that Facebook collected the
date and time of the visit, the referrer URL, and other
technical information. It continued, “[i]f you are
logged into Facebook, we also see your user ID number and email address. . . . If you log out of Facebook,
This policy was originally titled “Privacy Policy.” During the
class period, its title was changed to “Data Use Policy.”

5

Facebook disputes that some of the Help Center pages Plaintiffs attached to their complaint were dated during the class period. It does not dispute, however, that this particular Help Center page fell within the class period.

6

21a
we will not receive this information about partner
websites but you will also not see personalized experiences on these sites.”
Plaintiffs have plausibly alleged that an individual reading Facebook’s promise to “make important
privacy disclosures” could have reasonably concluded
that the basics of Facebook’s tracking—when, why,
and how it tracks user information—would be provided. Plaintiffs have plausibly alleged that, upon
reading Facebook’s statements in the applicable Data
Use Policy, a user might assume that only logged-in
user data would be collected. Plaintiffs have alleged
that the applicable Help Center page affirmatively
stated that logged-out user data would not be collected. Thus, Plaintiffs have plausibly alleged that
Facebook set an expectation that logged-out user data
would not be collected, but then collected it anyway.
In addition, the amount of data allegedly collected
was significant. Plaintiffs allege that “[n]o matter
how sensitive the website, the referral URL is acquired by Facebook along with the cookies that precisely identify the [logged-out] user” and that Facebook acquires an “enormous amount of individualized
data” through its use of cookies on the countless websites that incorporate Facebook plug-ins. That this
amount of information can be easily collected without
user knowledge is similarly significant. Plaintiffs
have plausibly alleged that Facebook did not disclose
that the cookies would continue to track users’ browsing history after they log out of the platform. Nor did
it disclose the extent of information collected.

22a
In light of the privacy interests and Facebook’s allegedly surreptitious and unseen data collection,
Plaintiffs have adequately alleged a reasonable expectation of privacy. Case law supports this determination. In In re Google Cookie—where the Third Circuit
similarly interpreted California Law—the court held
that users maintained a reasonable expectation of privacy in their browsing histories when Google tracked
URLs after the users denied consent for such tracking. 806 F.3d at 129, 151; see also In re Nickelodeon
Cons. Priv. Litig., 827 F.3d 262, 293–94 (3d Cir. 2016)
(“In re Nickelodeon”) (holding, under analogous New
Jersey law, that a reasonable expectation of privacy
existed when Nickelodeon promised users that it
would not collect information from website users, but
then did). That users in those cases explicitly denied
consent does not render those cases distinguishable
from the instant case, given Facebook’s affirmative
statements that it would not receive information from
third-party websites after users had logged out. Indeed, in those cases, the critical fact was that the
online entity represented to the plaintiffs that their
information would not be collected, but then proceeded to collect it anyway.
The nature of the allegedly collected data is also
important. Plaintiffs allege that Facebook obtained a
comprehensive browsing history of an individual, no
matter how sensitive the websites visited, and then
correlated that history with the time of day and other
user actions on the websites visited. This process, according to Plaintiffs, resulted in Facebook’s acquiring
“an enormous amount of individualized data” to compile a “vast repository of personal data.”

23a
Facebook argues that Plaintiffs need to identify
specific, sensitive information that Facebook collected, and that their more general allegation that Facebook acquired “an enormous amount of individualized data” is insufficient. However, both the nature of
collection and the sensitivity of the collected information are important. The question is not necessarily
whether Plaintiffs maintained a reasonable expectation of privacy in the information in and of itself. Rather, we must examine whether the data itself is sensitive and whether the manner it was collected—after
users had logged out—violates social norms.
When we consider the sensitivity of that data,
moreover, we conclude there remain material questions of fact as to whether a reasonable individual
would find the information collected from the seven
million websites that employ Facebook plug-ins “sensitive and confidential.” Hill, 7 Cal. 4th at 35. “Technological advances[,]” such as Facebook’s use of cookies to track and compile internet browsing histories,
“provide ‘access to a category of information otherwise
unknowable’ and ‘implicate privacy concerns’ in a
manner different from traditional intrusions as a ‘ride
on horseback’ is different from ‘a flight to the moon.’”
Patel, 932 F.3d at 1273 (quoting Riley v. California,
573 U.S. 373, 393 (2014)). Thus, viewing the allegations in the light most favorable to Plaintiffs, as we
must at this stage, the allegations that Facebook allegedly compiled highly personalized profiles from
sensitive browsing histories and habits prevent us

24a
from concluding that the Plaintiffs have no reasonable expectation of privacy.7
Contrary to Facebook’s arguments, this case can
also be distinguished from Forrester and Zynga as it
relates to an analysis of a reasonable expectation of
privacy. Forrester, 512 F.3d 500; Zynga, 750 F.3d
1098. In Forrester, we considered whether the individuals had a reasonable expectation of privacy in “the

Analogous cases decided in the Fourth Amendment context
support a conclusion that the breadth of information allegedly
collected would violate community norms. These cases hold that
individuals have a reasonable expectation of privacy in collections of information that reveal “familiar, political, professional,
religious, and sexual associations.” See Carpenter v. United
States, 138 S. Ct. 2206, 2217 (2018) (holding that individuals
have a reasonable expectation of privacy in long-term location
tracking data under the Fourth Amendment because it reveals
all-encompassing information); Riley, 573 U.S. at 397–99 (holding that individuals have a reasonable expectation of privacy in
the contents of their cell phones under the Fourth Amendment
due to the large amount of personal data stored therein); United
States v. Forrester, 512 F.3d 500, 510 n.6 (9th Cir. 2008) (noting
that, in a Fourth Amendment search context, URLs may be particularly sensitive because they “identif[y] the particular document within a website that a person views and thus reveals
much more information about the person’s Internet activity”).
We acknowledge that the Fourth Amendment imposes higher
standards on the government than those on private, civil litigants. Carpenter, 138 S. Ct. at 2213–14. But we have nonetheless found analogies to Fourth Amendment cases applicable
when deciding issues of privacy related to technology. See Patel,
932 F.3d at 1272–73. And, viewed broadly, these cases stand for
the proposition that individuals maintain the expectation that
entities will not be able to collect such broad swaths of personal
information absent consent.
7

25a
to/from addresses of their messages or the IP addresses of the websites they visit.” 512 F.3d at 510.
Concluding that users did not maintain a reasonable
expectation of privacy in such information, we determined that users “should know that this information
is provided to and used by Internet service providers
for the specific purposes of directing the routing information.” Id. But, in a footnote, we went on to distinguish the IP addresses collected in Forrester from the
collection of URLs, which we stated “might be more
constitutionally problematic,” explaining that, “[a]
URL, unlike an IP address, identifies the particular
document within a website that a person views and
thus reveals much more information about the per
son’s Internet activity.” Id. at n.6.
In Zynga, the plaintiffs relied on this footnote to
argue that they maintained a reasonable expectation
of privacy in the URLs of gaming websites collected
without their knowledge and disclosed to third parties
by Zynga (a gaming platform) and Facebook. 750 F.3d
at 1108–09. The Zynga plaintiffs alleged that users
would log in to their Facebook account and “then click
on the Zynga game icon within the Facebook interface.” Id. at 1102. Facebook and Zynga would then collect a referer header containing the URL for the
Zynga game, after which the Zynga server would load
the game in a small frame embedded on the Facebook
website. Id. According to the Zynga plaintiffs, “Zynga
programmed its gaming applications to collect the information provided in the referer header, and then
transmit this information to advertisers and other
third parties.” Id. This information included “the
user’s Facebook ID and the address of the Facebook

26a
webpage the user was viewing when the user clicked
the link.” Id. at 1102.
In Zynga, we concluded that the collected information was not problematic because it differed from
the URLs containing sensitive information alluded to
in Forrester’s footnote. We determined that “[i]nformation about the address of the Facebook webpage
the user was viewing is distinguishable from the sort
of communication involving a search engine discussed
in Forrester.” Id. at 1108. We then continued to say
that “a Google search URL not only shows that a user
is using the Google search engine, but also shows the
specific search terms the user had communicated to
Google.” Id. We continued, “the referer header information at issue here includes only basic identification
and address information, not a search term or similar
communication made by the user.” Id. at 1108–09.
Here, Plaintiffs allege that Facebook collects a
full-string detailed URL, which contains the name of
a website, folder and sub-folders on the web-server,
and the name of the precise file requested. Their complaint notes that a user might type a search term into
Google’s search engine, which would return a link to
an article relevant to the search term. According to
Plaintiffs, when the user clicks the link, a communication is created that contains a “GET request and the
full-string detailed URL.” They allege that Facebook
collected this communication, including the “full referral URL (including the exact subpage of the precise
items being purchased)” and that Facebook then “correlates that URL with the user ID, time stamp,
browser settings and even the type of browser used.”

27a
In sum, Plaintiffs allege that a Google search could
generate links that include full-string, detailed URLs
that Facebook then collected. Thus, they have sufficiently alleged that the collected URLs in this case are
distinct from IP addresses collected in Forrester, as
well as the URLs collected in Zynga. The URLs, by
virtue of including “the particular document within a
website that a person views” reveal “much more information” than the IP addresses collected in Forrester.
512 F.3d at 510 n.6. Unlike the URLs in Zynga, which
revealed only that a Facebook user had clicked on a
link to a gaming website, Plaintiffs allege that the
URLs in the instant case could emanate from search
terms inputted into a third-party search engine.
These terms and the resulting URLs could divulge a
user’s personal interests, queries, and habits on thirdparty websites operating outside of Facebook’s platform.
Moreover, the users in Zynga clicked on links to
the gaming websites after they had logged into their
Facebook user accounts. Zynga, 750 F.3d at 1102.
Then, the linked material appeared within the Facebook interface. Id. Here, in contrast, Plaintiffs allege
that users were not logged in to the website, making
it impossible for the linked material to be viewed
within Facebook’s interface.
The fact that users could have taken additional
measures to prevent cookies from tracking their
browsing, as Facebook asserts, is not relevant at the
pleading stage. This is a factbased defense to be developed and asserted at a later stage of the litigation.
And Plaintiffs have alleged that these protections

28a
would not have done any good, even if users had employed them. Specifically, they allege that Facebook
would “hack its way past data protection software” to
“bypass[] security settings for the purpose of gathering intelligence” on the users’ real-time searches, and
similarly, with respect to a subclass of individuals
who used the Internet Explorer browser, that Facebook fraudulently maintained that it employed a protocol that would result in its tracking being automatically blocked by the browser. These issues cannot be
resolved at the pleading stage.
In sum, Plaintiffs have sufficiently pleaded a reasonable expectation of privacy to survive a Rule
12(b)(6) motion to dismiss.
2
However, in order to maintain a California common law privacy action, “[p]laintiffs must show more
than an intrusion upon reasonable privacy expectations. Actionable invasions of privacy also must be
‘highly offensive’ to a reasonable person, and ‘sufficiently serious’ and unwarranted so as to constitute
an ‘egregious breach of the social norms.’” Hernandez,
47 Cal. 4th at 295. Determining whether a defendant’s actions were “highly offensive to a reasonable
person” requires a holistic consideration of factors
such as the likelihood of serious harm to the victim,
the degree and setting of the intrusion, the intruder’s
motives and objectives, and whether countervailing
interests or social norms render the intrusion inoffensive. Id. at 287; see also Hill, 7 Cal. 4th at 25–26.
While analysis of a reasonable expectation of privacy
primarily focuses on the nature of the intrusion, the

29a
highly offensive analysis focuses on the degree to
which the intrusion is unacceptable as a matter of
public policy. Hernandez, 47 Cal. 4th at 287 (noting
that highly offensive analysis “essentially involves a
‘policy’ determination as to whether the alleged intrusion is highly offensive under the particular circumstances”).
The ultimate question of whether Facebook’s
tracking and collection practices could highly offend a
reasonable individual is an issue that cannot be resolved at the pleading stage. Plaintiffs have identified
sufficient facts to survive a motion to dismiss. Plaintiffs’ allegations of surreptitious data collection when
individuals were not using Facebook are sufficient to
survive a dismissal motion on the issue. Indeed,
Plaintiffs have alleged that internal Facebook communications reveal that the company’s own officials
recognized these practices as a problematic privacy issue.
In sum, Plaintiffs have sufficiently pleaded the
“reasonable expectation of privacy” and “highly offensive” elements necessary to state a claim for intrusion
upon seclusion and invasion of privacy to survive a
12(b)(6) motion to dismiss.8
The non-precedential cases cited by Facebook do not compel the
opposite conclusion. For instance, in In re Google, Inc. Privacy
Policy Litig., the Northern District of California found no highly
offensive conduct when Plaintiffs alleged that Google surreptitiously tracked their browsing data while using Google’s services. 58 F. Supp. 3d 968, 987–88 (N.D. Cal. 2014). Here, on the
other hand, Plaintiffs had logged out and were not using Facebook when Facebook tracked them. The same is true in Low v.
LinkedIn Corp., 900 F. Supp. 2d 1010, 1016–18 (N.D. Cal. 2012)

8

30a
B
Plaintiffs also have sufficiently alleged that Facebook’s tracking and collection practices violated the
Wiretap Act and CIPA.
1
The Wiretap Act prohibits the unauthorized “interception” of an “electronic communication.” 18
U.S.C. § 2511(1)(a)–(e). Similarly, CIPA prohibits any
person from using electronic means to “learn the contents or meaning” of any “communication” “without
consent” or in an “unauthorized manner.” Cal. Pen.
Code § 631(a). Both statutes contain an exemption
from liability for a person who is a “party” to the communication, whether acting under the color of law or
not. 18 U.S.C. § 2511(2)(c), (d); see Warden v. Kahn,
160 Cal. Rptr. 471, 475 (1979) (“[S]ection 631 . . . has
been held to apply only to eavesdropping by a third
party and not to recording by a participant to a conversation.”). Courts perform the same analysis for
both the Wiretap Act and CIPA regarding the party
exemption. See, e.g., In re Google Cookie, 806 F.3d at
152 (holding that CIPA claims could be dismissed because the parties were exempted from liability under
the Wiretap Act’s party exception).
The party exception must be considered in the
technical context of this case. When an individual internet user visits a web page, his or her browser sends
and In re iPhone App. Litig., 844 F. Supp. 2d 1040, 1049–50 (N.D.
Cal. 2012). In those cases, there were likewise no allegations
that the defendants tracked the plaintiffs after the plaintiffs
stopped using the defendant’s services.

31a
a message called a “GET request” to the web page’s
server. The GET request serves two purposes: it first
tells the website what information is being requested
and then instructs the website to send the information back to the user. The GET request also transmits a referer header containing the personally-identifiable URL information. Typically, this communication occurs only between the user’s web browser and
the third-party website. On websites with Facebook
plug-ins, however, Facebook’s code directs the user’s
browser to copy the referer header from the GET request and then send a separate but identical GET request and its associated referer header to Facebook’s
server. It is through this duplication and collection of
GET requests that Facebook compiles users’ browsing
histories.
The Wiretap Act does not define the term “party”
in its liability exemption, and the other circuit courts
that have considered the Act’s scope have interpreted
the term in different ways. The First and Seventh Circuits have implicitly assumed that entities that surreptitiously duplicate transmissions between two parties are not parties to communications within the
meaning of the Act. In In re Pharmatrak, Inc. Privacy
Litig., the First Circuit considered whether the defendant could face liability under the Wiretap Act
when it employed software that “automatically duplicated part of the communication between a user and
a [third-party website] and sent this information to
[the defendant].” 329 F.3d 9, 22 (1st Cir. 2003). The
First Circuit rejected the defendant’s argument that
“there was no interception because ‘there were always
two separate communications: one between the Web

32a
user and the [third-party website], and the other between the Web user and [the defendant].’” Id. Noting
that the defendant “acquired the same URL . . . exchanged as a part of the communication between the
[third-party website] and the user,” it determined
that the defendant’s acquisition constituted an interception and could still render it liable. Id.
In United States v. Szymuszkiewicz, the Seventh
Circuit reached a similar conclusion. 622 F.3d 701
(7th Cir. 2010). In that case, the Seventh Circuit considered whether a defendant violated the Wiretap Act
when he employed a software that instructed his employer’s email to duplicate and forward all emails the
employer received to the defendant’s own inbox. Id. at
703. The court determined that, because the copies
were sent contemporaneously with the original
emails, the defendant had intercepted the communications and could be held liable. Id. at 706.
However, the Third Circuit has held to the contrary. In In re Google Cookie, the court considered
whether internet advertising companies were parties
to a communication when they placed cookie blockers
on web-users’ browsers to facilitate online advertisements. 806 F.3d at 143. As in the instant case, the users sent GET requests to third-party websites and
upon receipt, the website would duplicate the GET request and send it to the defendants. Id. at 140. The
Third Circuit concluded that the defendants were “the
intended recipients” of the duplicated GET requests,
and thus “were parties to the transmissions at issue.”

33a
Id. at 143; see also In re Nickelodeon, 827 F.3d at 275–
76 (citing In re Google Cookie for the same).9
We adopt the First and Seventh Circuits’ understanding that simultaneous, unknown duplication
and communication of GET requests do not exempt a
defendant from liability under the party exception. As
we have previously held, the “paramount objective of
the [Electronic Communications Privacy Act, which
amended the Wiretap Act] is to protect effectively the
privacy of communications.” Joffe v. Google, 746 F.3d
920, 931 (9th Cir. 2013). We also recognize that the
Wiretap Act’s legislative history evidences Congress’s
intent to prevent the acquisition of the contents of a
message by an unauthorized third-party or “an unseen auditor.” See S. REP. NO. 90-1097, reprinted in
1986 U.S.C.C.A.N. 2112, 2154, 2182. Permitting an
entity to engage in the unauthorized duplication and
forwarding of unknowing users’ information would
render permissible the most common methods of intrusion, allowing the exception to swallow the rule.
Therefore, we conclude that Facebook is not exempt from liability as a matter of law under the Wiretap Act or CIPA as a party to the communication. We
do not opine whether the Plaintiffs adequately
In Konop v. Hawaiian Airlines, Inc., we adopted a definition of
“intercept” that encompassed both an “acquisition contemporaneous with transmission” and an act requiring a party to “stop,
seize, or interrupt in progress or course before arrival.” 302 F.3d
868, 878 (9th Cir. 2002). In that case, however, we considered
whether items viewed on a private website were intercepted, in
violation of the Wiretap Act, not plug-ins that duplicated and
sent GET requests, as we consider here.

9

34a
pleaded the other requisite elements of the statutes,
as those issues are not presented on appeal.
C
The district court properly dismissed Plaintiffs’
SCA claims. The SCA requires Plaintiffs to plead that
Facebook (1) gained unauthorized access to a “facility”
where it (2) accessed an electronic communication in
“electronic storage.” 18 U.S.C. § 2701(a).
Electronic storage is defined as either the “temporary, intermediate storage of a wire or electronic communication incidental to the electronic transmission
thereof” and “any storage of such communication by
an electronic communication service for purposes of
backup protection of such communication.” 18 U.S.C.
§ 2510(17).
Plaintiffs allege that “[w]eb-browsers store a copy
of the Plaintiffs’ URL requests in the toolbar while the
user remains present at a particular webpage,” and
that this storage is incidental to the electronic communication because once “the user hits the Enter button or clicks on a link, the communication is in the
process of being sent and received between the user
and the first-party website.” Plaintiffs similarly assert that their browsing history—a record of previously viewed websites—serves purposes of “backup
protection” of such communications. In short, Plaintiffs allege that the URL is in “electronic storage” in
the toolbar during the split-second that it takes to
complete a search. In Plaintiffs’ view, because Facebook duplicates the URL and sends it to its servers
during that split second, it accesses the URL while it
is in this “electronic storage.”

35a
The district court considered the GET requests
that Facebook duplicated and forwarded to its servers
as wholly separate from the copy of the URL displayed
in the search toolbar. Because the copy in the toolbar
was not stored “incident to transmission” but was only
present for the user’s convenience, the district court
determined that the Plaintiffs’ data was not in electronic storage.
We agree. The communications in question—the
GET requests themselves—are not the communications stored in the user’s toolbar. Rather, the GET requests are sent directly between the user and the
third-party website. The text displayed in the toolbar
serves only as a visual indication—a means of informing the user—of the location of their browser. Thus,
the URL’s appearance in the toolbar is not “incidental” to the transmission of the URL or GET request.
What is more, Plaintiffs’ interpretation of the SCA
would stretch its application beyond its limits. True,
the SCA’s legislative history suggests that Congress
intended the term “electronic storage” to be broadly
construed, and not limited to “particular mediums,
forms, or locations.” Hately v. Watts, 917 F.3d 770,
786 (4th Cir. 2019) (citing H.R. REP., NO. 99- 647, at
39 (1986)). Nonetheless, the text and legislative history of the SCA demonstrate that its 1986 enactment
was driven by congressional desire to protect thirdparty entities that stored information on behalf of users. See id. at 782 (noting that the SCA was enacted
to protect against illicit access to stored communications in “remote computing operations and large data
banks that stored emails”). Since then, the SCA has

36a
typically only been found to apply in cases involving a
centralized data-management entity; for instance, to
protect servers that stored emails for significant periods of time between their being sent and their recipients’ reading them. See id. at 798 (considering
whether a web-based email service “stored” emails);
Theofel v. Farey-Jones, 359 F.3d 1066, 1072 (9th Cir.
2004) (considering whether emails stored by an internet service provider fell under the statute’s purview).
Here, the allegations, even construed in the light most
favorable to Plaintiffs, do not show that the communications were even in “storage,” much less that the
alleged “storage” within a URL toolbar falls within
the SCA’s intended scope.
Plaintiffs alternatively argue that their browsing
histories are stored for “purposes of back-up” and thus
satisfy the SCA’s electronic storage definition. Plaintiffs note that, in Theofel, we held that a copy of information stored on a user’s computer “in the event that
the user needs to download it again” constituted storage for backup purposes. 359 F.3d at 1075. In this
case, however, the browsing histories are not composed of the actual communications sent between the
individuals—rather, the browsing histories are
merely a record of URLs visited. Thus, Plaintiffs’
claims for relief under the SCA are insufficient, and
the district court correctly dismissed them.10
10 Because we hold that the URLs are not in electronic storage,
we need not decide whether Plaintiffs sufficiently allege that
their personal computers, web browsers, and browser managed
files are “facilities,” through which electronic communications
service providers operate.

37a
D
The district court also properly held that the
Plaintiffs have not stated a breach of contract claim.
In order to establish a contract breach, Plaintiffs must
allege: (1) the existence of a contract with Facebook,
(2) their performance under that contract, (3) Facebook breached that contract, and (4) they suffered
damages. Oasis West Realty, LLC v. Goldman, 51 Cal.
4th 811, 821 (2011).
Plaintiffs allege that Facebook entered into a contract with each Plaintiff consisting of the SRR, Privacy Policy, and relevant Help Center pages. The parties agree that the SRR constitutes a contract. In their
third amended complaint, Plaintiffs attached the SRR
that was last revised April 26, 2011. This document
states “[y]our privacy is very important to us” and
“[w]e encourage you to read the Privacy Policy, and to
use it to help make informed decisions.” But this document does not contain an explicit promise not to
track logged-out users. For that allegation, Plaintiffs
instead rely on language from the Data Use Policy
and the Help Center pages.
To properly incorporate another document, the
document “need not recite that it incorporates another document, so long as it guide[s] the reader to
the incorporated document.” Shaw v. Regents of the
Univ. of Cal., 58 Cal. App. 4th 44, 54 (1997) (internal
quotations and citations omitted). During the class
period, Facebook changed the title of its “Privacy Policy” to “Data Use Policy” and made adjustments to its
content. Although the relevant SRR directs readers to
the Privacy Policy, Plaintiffs rely on the latest version

38a
of this document, titled “Data Use Policy,” last revised
September 7, 2011. The attached SRR does not reference a Data Use Policy and thus, it does not guide the
reader to the incorporated document on which Plaintiffs rely. As such, as a matter of law, any promise not
to track logged-out users therein was not incorporated.
On appeal, Plaintiffs argue that the Data Use Policy constitutes an additional agreement separate from
the SRR. Plaintiffs support this allegation with text
from the September 2011 Data Use Policy, which
states that, were Facebook to transfer ownership, the
new owner would “still have to honor the commitments we have made in this privacy policy,” and the
December 2010 Privacy Policy, which states “[b]y using or accessing Facebook, you agree to our privacy
practices outlined here.”
First, the December 2010 Privacy Policy does not
contain any agreement that Facebook would not track
logged-out user data.11 Second, and more generally,
the Privacy and Data Use Policies do not outline
shared commitments to which users must abide. For
a contract to exist, there must be an exchange for a
promise. Steiner v. Thexton, 48 Cal. 4th 411, 421
(2010). The 2011 Data Use Policy does not contain any

11 The December 2010 Privacy Policy states: “If you log out of
Facebook before visiting a pre-approved application or website,
it will not be able to access your information.” This statement
merely provides that the third-party websites will not receive a
user’s information. It does not make any promises regarding Facebook’s receipt of data.

39a
exchange. To illustrate, while the SRR outlines commitments to which both Facebook and users agree (for
example, users agree not to “send or otherwise post
unauthorized commercial communications” on Facebook, while Facebook promises to “provide . . . tools to
help you protect your property rights”), the 2011 Data
Use Policy merely provides information—not commitments—regarding Facebook’s use of information and
how users can control that information (for example,
it states that “[y]our information is the information
that’s required when you sign up for the site”). Plaintiffs’ reliance on one use of the term “commitment”
within this document cannot overcome the fact that
the document does not require the user to make any
commitment. Thus, the Data Use Policy does not constitute a separate contract. Because Plaintiffs have
failed to allege adequately the existence of a contract
that was subject to breach, we affirm the district
court’s dismissal of their breach of contract claim.
Plaintiffs also alleged that Facebook’s tracking
practices violated the implied covenant of good faith
and fair dealing. However, as pleaded, the allegations
did not go beyond the breach of contract theories asserted by Plaintiffs and were thus properly dismissed.
Carau & Co. v. Sec. Pac. Bus. Credit, Inc., 222 Cal.
App.3d 1371, 1395 (1990).
IV
In sum, we conclude that Plaintiffs have standing
to assert their claims. We affirm the district court’s
dismissal of the SCA, breach of contract, and breach
of implied covenant claims. We conclude that Plaintiffs adequately pleaded their remaining claims at

40a
this early stage to survive a motion to dismiss under
Rule 12(b)(6). We remand these issues to the district
court for further consideration. We do not reach any
other issue argued by the parties, leaving those issues
for consideration by the district court in the first instance. All pending motions are denied as moot. The
parties shall bear their own costs.
AFFIRMED IN PART, REVERSED IN PART,
AND REMANDED.

41a
APPENDIX B
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
SAN JOSE DIVISION
In re Facebook Internet
Tracking Litigation

Case No. 5:12-md02314-EJD
ORDER GRANTING
DEFENDANT’S MOTION TO DISMISS
Re: Dkt No. 162

Plaintiffs’ third amended complaint alleges that
Defendant Facebook, Inc. violated its contractual obligations by tracking logged-out Facebook users on
third-party websites. Facebook now moves to dismiss
for the third time. Facebook’s motion will be granted.
I. BACKGROUND
In this putative class action, Plaintiffs allege that
Facebook improperly tracked the web browsing activity of logged-out Facebook users on third-party websites.1 Third Am. Compl. (“TAC”), Dkt. No. 157. Plaintiffs previously asserted a variety of common law
claims and claims for violations of federal and state
statutes. After two rounds of motions to dismiss, this
Court dismissed the majority of Plaintiffs’ claims with
1

For a more detailed discussion of Plaintiffs’ factual allegations,
see this Court’s orders granting Facebook’s motion to dismiss
Plaintiffs’ first amended complaint (Dkt. No. 87 at 2–6) and Facebook’s motion to dismiss Plaintiffs’ second amended complaint
(Dkt. No. 148 at 1–3).

42a
prejudice for lack of standing and for failure to state
a claim. Order Granting Def.’s Mot. to Dismiss (“MTD
Order”), Dkt. No. 148. This Court granted leave to
amend only as to Plaintiffs’ claims for breach of contract and breach of the duty of good faith and fair
dealing. Id. Plaintiffs timely filed their third amended
complaint. Facebook now moves to dismiss under Fed.
R. Civ. P. 12(b)(6) and 15(c). Def.’s Mot. to Dismiss
(“MTD”), Dkt. No. 162.
II. LEGAL STANDARD
A motion to dismiss under Fed. R. Civ. P. 12(b)(6)
tests the legal sufficiency of claims alleged in the complaint. Parks Sch. of Bus., Inc. v. Symington, 51 F.3d
1480, 1484 (9th Cir. 1995). Dismissal “is proper only
where there is no cognizable legal theory or an absence of sufficient facts alleged to support a cognizable legal theory.” Navarro v. Block, 250 F.3d 729, 732
(9th Cir. 2001). The complaint “must contain sufficient factual matter, accepted as true, to ‘state a claim
to relief that is plausible on its face.’ ” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting Bell Atl. Corp.
v. Twombly, 550 U.S. 544, 570 (2007)).
III. DISCUSSION
Plaintiffs’ TAC asserts causes of action for (1)
breach of contract (TAC ¶¶ 139–48) and (2) breach of
the duty of good faith and fair dealing (TAC ¶¶ 149–
61). Plaintiffs also seek to enlarge the scope of the proposed class.

43a
A. Breach of Contract
Plaintiffs allege that each of them entered into a
contract with Facebook that consisted of (1) Facebook’s Statement of Rights and Responsibilities
(“SRR”), (2) Facebook’s Privacy Policy, and (3) relevant pages from Facebook’s Help Center. TAC ¶ 140.
According to Plaintiffs, Facebook promised in the contract that it would not track the web browsing activity
of logged-out Facebook users on third-party websites.
Id. ¶ 142. Plaintiffs allege that Facebook broke that
promise by collecting data about logged-out users’
browsing activity and using cookies to connect that
activity to users’ identities. Id.
To state a claim for breach of contract, Plaintiffs
must allege that (1) they entered into a contract with
Facebook, (2) Plaintiffs performed or were excused
from performance under the contract, (3) Facebook
breached the contract, and (4) Plaintiffs suffered damages from the breach. Oasis W. Realty, LLC. v. Goldman, 51 Cal. 4th 811, 821 (2011) (citing Reichert v.
General Ins. Co., 68 Cal. 2d 822, 830 (1968)). “In an
action for breach of a written contract, a plaintiff must
allege the specific provisions in the contract creating
the obligation the defendant is said to have breached.”
Woods v. Google Inc., No. 05:11-cv-1263-JF, 2011 WL
3501403, at *3 (N.D. Cal. Aug. 10, 2011).
The parties agree that the SRR constitutes a contract. MTD 8; Pls.’ Opp’n to Def.’s Mot. to Dismiss
(“Opp’n”), Dkt. No. 163. However, the SRR itself does
not contain a promise to not track logged-out users.
Rather, Plaintiffs argue that the operative contract is

44a
a combination of provisions from Facebook’s SRR, Facebook’s Privacy Policy,2 and Facebook’s Help Center
pages.3
i. The Data Use Policy was not incorporated by reference into the Statement
of Rights and Responsibilities.
Plaintiffs cite the following language from Facebook’s Data Use Policy (dated September 7, 2011):
We receive data whenever you visit a . . .
site with a Facebook feature (such as a social plugin). This may include the date and
time you visit the site; the web address, or
URL, you’re on; technical information
about the IP address, browser and the operating system you use; and, if you are
logged in to Facebook, your User ID.
TAC ¶ 60 (emphasis added). Plaintiffs argue that this
language “implicitly promises to the average user

During the alleged class period, Facebook changed the title of
this document from “Privacy Policy” to “Data Use Policy.” Opp’n
4 n.4. As discussed below, Facebook also changed the substance
of the document. In this order, unless otherwise indicated, the
term “Privacy Policy” refers to both the Privacy Policy and the
Data Use Policy.

2

Plaintiffs’ statement of their cause of action for breach of contract does not identify the specific contractual language that Facebook allegedly breached. TAC ¶¶ 139–48. However, Plaintiffs
identify specific contractual language in their brief in opposition
to Facebook’s motion to dismiss. Opp’n 4 (citing factual allegations in the TAC at ¶¶ 24, 57, 60, and 62–67).

3

45a
that Facebook will not receive [a user-identifying]
cookie when the user is not logged in.” Id.
Plaintiffs argue that this version of the Data Use
Policy is part of the contract because it was incorporated by reference into the SRR. Opp’n 4–5. Under
California law, for the terms of another document to
be incorporated by reference into an executed document, “the reference must be (1) clear and unequivocal, the (2) reference must be called to the attention of
the other party and he must consent thereto, and (3)
the terms of the incorporated document must be
known or easily available to the contracting parties.”
Woods, 2011 WL 3501403, at *3 (quoting Troyk v.
Farmers Grp., Inc., 171 Cal. App. 4th 1305, 1331
(2009)).
Here, Plaintiffs argue that the Privacy Policy was
incorporated by reference into the SRR because of the
following language in the SRR:
Your privacy is very important to us. We
designed our Privacy Policy to make important disclosures about how you can use
Facebook to share with others and how we
collect and can use your content and information. We encourage you to read the Privacy Policy, and to use it to help make informed decisions.
TAC ¶¶ 24, 57.4 According to Plaintiffs, this language
means that the Privacy Policy is incorporated by ref-

Plaintiffs’ opposition brief quotes additional language from the
SRR that is not cited in the TAC: “You may also want to review

4

46a
erence into the SRR because the “SRR expressly refers to the Privacy Policy, says that the Policy is important, links to that Policy and tells users to read it
to make important decisions about their privacy.”
Opp’n 5.
Plaintiffs’ complaint cites four versions of Facebook’s SRR, dated April 22, 2010 (TAC Ex. A), August
25, 2010 (TAC Ex. B), October 4, 2010 (TAC Ex. C),
and April 26, 2011 (TAC Ex. D). TAC ¶¶ 19–20. The
excerpt quoted above appears in all four versions of
the SRR.
As discussed above, Plaintiffs argue that Facebook’s Data Use Policy promised that Facebook would
not track logged-out users. However, the version of
the Data Use Policy that contains this language was
not published until September 7, 2011—more than
four months after the latest version of the SRR (dated
April 26, 2011) that Plaintiffs attach to their complaint. See TAC Ex. D (attaching the April 26, 2011,
version of the SRR), Ex. H (attaching the September
7, 2011, version of the Data Use Policy). Earlier versions of the Privacy Policy did not contain the language that Plaintiffs allege constitutes a promise not
to track logged-out users. Compare id. Ex. H (attaching the September 7, 2011, version of the Data Use
Policy, which states that Facebook “receive[s] data
whenever you visit a . . . site with a Facebook feature
(such as a social plugin) . . . . [including], if you are
logged in to Facebook, your User ID”) (emphasis
the following documents: Privacy Policy: the Privacy Policy is designed to help you understand how we collect and use information.” Opp’n 5.

47a
added), with id. Ex. E (attaching the April 22, 2010,
version of the Privacy Policy), Ex. F (attaching the October 5, 2010, version of the Privacy Policy), and Ex.
G (attaching the December 22, 2010, version of the
Privacy Policy).
As Facebook points out, the SRR does not use the
term “Data Use Policy” and does not contain any other
references to the Data Use Policy. MTD 11–12. Nor
could it, since the Data Use Policy Plaintiffs cite and
rely on did not exist until several months after Facebook published the most recent version of its SRR that
Plaintiffs attach to their complaint. Plaintiffs do not
address this deficiency in their opposition brief. Compare MTD 11–12 (noting that the Data Use Policy
“was active starting on September 7, 2011,” and that
the policy “was not incorporated into any of the SRR
versions attached to the TAC, and was therefore not
a part of the contract”), with Opp’n 4–5 (arguing that
the SRR “expressly refers to the Privacy Policy,” but
offering no response to Facebook’s point that the Data
Use Policy was not operative at the time the cited SRR
was published). In addition, Plaintiffs do not allege
that earlier versions of the Privacy Policy contained
similar promises to not track logged-out users.5
During the hearing on Facebook’s motion on November 16,
2017, Plaintiffs’ counsel argued that the September 7, 2011,
Data Use Policy is incorporated into the April 26, 2011, SRR because Facebook’s users continuously agree to the SRR each time
they use or access Facebook. Plaintiffs base this argument on the
following statement from the SRR: “By using or accessing Facebook, you agree to this Statement.” TAC Ex. D. Under this theory, Plaintiffs argue that they agreed to the SRR on or after September 7, 2011, which means that the Data Use Policy would

5

48a
As such, the Court finds that the Data Use Policy
was not incorporated by reference into the SRR because the SRR did not “clearly and unequivocally” reference it. See Troyk, 171 Cal. App. 4th at 1331.
ii. The relevant Help Center pages were
not incorporated by reference into the
Statement of Rights and Responsibilities.
Plaintiffs also argue that various Help Center
pages were incorporated by reference into the SRR.
Opp’n 5–8. Facebook notes, and Plaintiffs do not dispute, that the SRR contains no direct references to
any Help Center pages. See MTD 8–9 (“the SRR does
not reference—or even hint at—a single one of the
Help Center pages Plaintiffs quote from”); Opp’n 6
(“the Help Center pages are the third link in the contractual chain . . . . the Privacy Policy linked to the
Help Center pages and directed users to them”). Rather, Plaintiffs’ theory is that certain Help Center
pages were incorporated by reference into the Privacy
Policy, and that the Privacy Policy was in turn incorporated into the SRR. Opp’n 7 (“the SRR incorporates
the Privacy Policy, and, in turn, the Help Center
pages”); TAC ¶¶ 61 (“The Help Center pages are incorporated by reference into the Privacy Policy and
are a part of the contract.”), 135 (stating that two
have been incorporated into the contract between the parties as
of that date. This argument fails for two reasons: first, the TAC
does not identify the dates that Plaintiffs “used or accessed” Facebook; and second, Plaintiffs have not alleged that the April 26,
2011, version of the SRR remained in effect as of September 7,
2011.

49a
questions common to all members of the proposed
class are “whether the SRR incorporates by reference
the Privacy Policy” and “whether the Privacy Policy
incorporates by reference the Help Center pages”).
Even if the Court assumes that the Privacy Policy
was incorporated into the SRR, Plaintiffs’ argument
fails because the Help Center pages were not incorporated into the Privacy Policy. In the TAC, Plaintiffs
cite several Help Center pages that, according to
Plaintiffs, contained promises not to track logged-out
users. See TAC ¶¶ 62–67. Some Help Center pages
contain explicit promises to that effect—for instance,
one page states: “When you log out of Facebook, we
remove the cookies that identify your particular account.” Id. ¶ 62, Ex. I. However, none of those Help
Center are referenced in the Privacy Policy. The Privacy Policy does not link to them, mention them, or
otherwise reference them directly.
Instead, Plaintiffs appear to argue that the individual Help Center pages are subparts of a single
“broader document.” Opp’n 5–6 (“a mainstay of Internet contract law teaches that customers are often contractually bound to individual provisions . . . even
when the hyperlink only links to the broader document”). This argument finds little factual support.
The Help Center pages exist independently at different URLs, as underscored by the fact that Plaintiffs
attached Help Center pages as separate exhibits to
their TAC. See TAC ¶¶ 62–67 (citing, in order, TAC
Exs. I, J, M, L, MM, NN, OO, PP, R, S). No evidence
suggests that a Facebook user who reads one Help
Center page has also read, or is even aware of, any of
the others.

50a
Plaintiffs also argue that the Help Center in its
entirety is incorporated into the Privacy Policy because the Privacy Policy links to some of its pages.
Opp’n 6 (“Here, the TAC demonstrates clearly how
that the Help Center generally (not just specific
pages) are incorporated into the SRR. . . . [T]he Privacy Policy linked to the Help Center pages and directed users to them, without exclusion.”) (emphasis
added). Plaintiffs’ argument that the Privacy Policy
“directed” users to Help Center pages “without exclusion” is at odds with TAC, which alleges that the Privacy Policy linked to some Help Center pages, but not
to the Help Center pages containing Facebook’s promises to not track logged-out users. TAC ¶¶ 62–67. This
relationship is too attenuated to support Plaintiffs’
position that the entire Help Center is incorporated
into the Privacy Policy. See Woods, 2011 WL 3501403,
at *3–4 (finding that pages within Google’s Help Center were not incorporated by reference into another
document, even when that document contained direct
hyperlinks to the Help Center pages at issue).
As such, the Court finds that the Help Center
pages cited in the TAC were not incorporated into the
Privacy Policy because they were not “known or easily
available to the contracting parties.” Id. (quoting
Troyk, 171 Cal. App. 4th at 1331).
B. Breach of the Duty of Good Faith and Fair
Dealing
As Plaintiffs note, a claim for a violation of the
duty of good faith and fair dealing must rest “upon the
existence of some specific contractual obligation.”
Opp’n 15 (quoting Avidity Partners, LLC v. State, 221

51a
Cal. App. 4th 1180, 1204 (2013)); see also Rosenfeld v.
JPMorgan Chase Bank, N.A., 732 F. Supp. 2d 952,
968 (N.D. Cal. 2010) (“[T]he implied covenant of good
faith and fair dealing ‘cannot impose substantive duties or limits on the contracting parties beyond those
incorporated in the specific terms of their agreement.’
”) (quoting Agosta v. Astor, 120 Cal. App. 4th 596, 607
(2004)).
As discussed in the previous section, Plaintiffs
have not identified contractual provisions that prohibited Facebook from tracking logged-out users in
the manner Plaintiffs allege. Plaintiffs’ claim for
breach of the duty of good faith and fair dealing must
therefore be dismissed.
C. Expanded Class Period
Plaintiffs’ second amended complaint alleged a
class period that began on May 27, 2010, and ended
on September 26, 2011. Second Am. Compl. (“SAC”) ¶
172, Dkt. No. 93. In the order granting Facebook’s motion to dismiss Plaintiff’s SAC, this Court dismissed
the majority of Plaintiffs’ claims without leave to
amend. MTD Order 14. This Court granted leave to
amend only as to Plaintiffs’ claims for breach of contract and breach of the duty of good faith and fair
dealing, and only “[b]ecause Plaintiffs [did] not identif[y] the specific contractual provisions they allege
were breached.” Id. at 13–14.
In their TAC, Plaintiffs allege a new class period
that begins on April 22, 2010, and ends on “a later
date to be determined upon the completion of discovery.” TAC ¶ 132. This expanded class definition exceeds the scope of leave to amend that the Court

52a
granted in its order dismissing Plaintiffs’ SAC. Fed.
R. Civ. P. 15(a)(2) provides that “a party may amend
its pleading only with the opposing party’s written
consent or the court’s leave.” Plaintiffs did not obtain
Facebook’s consent or this Court’s leave to expand its
class allegations. Accordingly, Plaintiffs’ expanded
class allegations are stricken.
D. Leave to Amend
Courts “should freely give leave [to amend] when
justice so requires.” Fed. R. Civ. P. 15(a)(2); In re Korean Air Lines Co., Ltd., 642 F.3d 685, 701 (9th Cir.
2011). Absent a showing of prejudice, delay, bad faith,
or futility, there is a strong presumption in favor of
granting leave to amend. Eminence Capital, LLC v.
Aspeon, Inc., 316 F.3d 1048, 1052 (9th Cir. 2003).
However, courts can dismiss without leave to
amend in the event of a plaintiff’s “repeated failure to
cure deficiencies by amendments previously allowed.”
Foman v. Davis, 371 U.S. 178, 182 (1962); see also
Abagninin v. AMVAC Chem. Corp., 545 F.3d 733, 742
(9th Cir. 2008) (“Leave to amend may also be denied
for repeated failure to cure deficiencies by previous
amendment.”); Zucco Partners, LLC v. Digimarc
Corp., 552 F.3d 981, 1007 (9th Cir. 2009), as amended
(Feb. 10, 2009) (“where the plaintiff has previously
been granted leave to amend and has subsequently
failed to add the requisite particularity to its claims,
‘[t]he district court’s discretion to deny leave to amend
is particularly broad’ ”) (quoting In re Vantive Corp.
Sec. Litig., 283 F.3d 1079, 1097–98 (9th Cir. 2002)).
Here, the Court previously allowed Plaintiffs to
amend their claims for breach of contract and breach

53a
of the duty of good faith and fair dealing. Since Plaintiffs’ amendments did not cure the defects the Court
identified, Plaintiffs’ claims will be dismissed without
leave to amend.
IV. CONCLUSION
Facebook’s motion to dismiss is GRANTED. The
Clerk shall close this file.
IT IS SO ORDERED.
Dated: November 17, 2017
/s/
EDWARD J. DAVILA
United States District Judge

54a
APPENDIX C
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
SAN JOSE DIVISION
In re Facebook Internet
Tracking Litigation

Case No. 5:12-md02314-EJD
ORDER GRANTING
DEFENDANT’S MOTION TO DISMISS
Re: Dkt No. 101

Plaintiffs allege that Defendant Facebook, Inc. violated their privacy by tracking their browsing activity on third-party websites. This Court previously
granted Facebook’s motion to dismiss, with leave to
amend, for lack of standing and failure to state a
claim. Plaintiffs filed an amended complaint, and Facebook now moves to dismiss. Facebook’s motion will
be GRANTED.
I. BACKGROUND
Facebook operates a social networking website.1
Second Am. Consolidated Class Action Compl.
(“SAC”) ¶ 16, Dkt. No. 93. Third-party websites can
embed Facebook “like” buttons to let users share content on Facebook—for instance, CNN can embed
“like” buttons on news articles that it publishes on
http://www.cnn.com/ to let users share content with
For a more detailed discussion of Plaintiffs’ factual allegations,
see this Court’s order granting Facebook’s previous motion to
dismiss, Dkt. No. 87 at 2-6.

1

55a
their Facebook friends. Id. ¶ 49. To make the “like”
button appear on the page, CNN embeds a small code
snippet that Facebook provides. Id. That code snippet
causes the user’s browser to send a background request to Facebook’s servers. Id. That request includes
the URL of the page where the “like” button is embedded, as well as the contents of “cookies”—small text
files—that Facebook has stored on that user’s
browser. Id. ¶¶ 3, 52.
Plaintiffs allege that Facebook uses “like” buttons
to track Plaintiffs’ web browsing activity. Id. ¶¶ 3–5.
Because URLs are transmitted to Facebook each time
a user visits a page that contains a “like” button,
Plaintiffs allege that Facebook violated various privacy laws by collecting detailed records of Plaintiffs’
private web browsing history. Id. Plaintiffs allege that
Facebook’s cookies enable it to uniquely identify users
and correlate their identities with their browsing activity, even when users are logged out of Facebook. Id.
¶¶ 48–49. As discussed below, Plaintiffs also allege
that Facebook circumvented certain privacy settings
of the Internet Explorer web browser. Id. ¶¶ 85–101.
Plaintiffs’ initial class-action complaint alleged
various statutory and common-law privacy violations.
Dkt. No. 35. Facebook moved to dismiss. Dkt. No. 44.
This Court granted Facebook’s motion to dismiss,
with leave to amend, on the grounds that Plaintiffs
failed to establish Article III standing with respect to
some of their claims, and that Plaintiffs failed to state
a claim with respect to the rest. Order Granting Def.’s
Mot. to Dismiss (“MTD Order”), Dkt. No. 87. Plaintiffs
filed an amended complaint alleging violations of the
federal Wiretap Act, 18 U.S.C. § 2510 et seq. (SAC ¶¶

56a
179–92); violations of the federal Stored Communications Act (“SCA”), 18 U.S.C. § 2701 et seq. (SAC ¶¶
193–208); violations of the California Invasion of Privacy Act (“CIPA”), Cal. Crim. Code §§ 631, 632 (SAC
¶¶ 209–19); invasion of privacy under the California
Constitution (SAC ¶¶ 220–31); intrusion upon seclusion (SAC ¶¶ 232–41); breach of contract (SAC ¶¶
242–52); breach of the duty of good faith and fair dealing (SAC ¶¶ 253–61); fraud, Cal. Civ. Code §§ 1572,
1573 (SAC ¶¶ 262–69); trespass to chattels (SAC ¶¶
270–73); violations of the California Comprehensive
Computer Data Access and Fraud Act (“CDAFA”),
Cal. Penal Code § 502 (SAC ¶¶ 274–85); and larceny,
Cal. Penal Code §§ 484, 496 (SAC ¶¶ 286–95).2 Facebook now moves to dismiss the SAC under Fed. R. Civ.
P. 12(b)(1) and 12(b)(6). Def.’s Mot. to Dismiss
(“MTD”), Dkt. No. 101.
II. LEGAL STANDARD
A. Rule 12(b)(1)
Dismissal under Fed. R. Civ. P. 12(b)(1) is appropriate if the complaint fails to allege facts sufficient to
establish subject-matter jurisdiction. Savage v. Glendale Union High Sch., 343 F.3d 1036, 1039 n.2 (9th
Cir. 2003). The Court “is not restricted to the face of
the pleadings, but may review any evidence, such as
affidavits and testimony, to resolve factual disputes
concerning the existence of jurisdiction.” McCarthy v.
Plaintiffs dropped their claims for conversion and violations of
the Computer Fraud and Abuse Act, the California Unfair Competition Law, and the California Consumer Legal Remedies Act.
Plaintiffs added claims for fraud, larceny, breach of contract, and
breach of the duty of good faith and fair dealing.

2

57a
United States, 850 F.2d 558, 560 (9th Cir. 1988). The
nonmoving party bears the burden of establishing jurisdiction. Chandler v. State Farm Mut. Auto. Ins.
Co., 598 F.3d 1115, 1122 (9th Cir. 2010).
B. Rule 12(b)(6)
A motion to dismiss under Fed. R. Civ. P. 12(b)(6)
tests the legal sufficiency of claims alleged in the complaint. Parks Sch. of Bus., Inc. v. Symington, 51 F.3d
1480, 1484 (9th Cir. 1995). Dismissal “is proper only
where there is no cognizable legal theory or an absence of sufficient facts alleged to support a cognizable legal theory.” Navarro v. Block, 250 F.3d 729, 732
(9th Cir. 2001). The complaint “must contain sufficient factual matter, accepted as true, to ‘state a claim
to relief that is plausible on its face.’ ” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting Bell Atl. Corp.
v. Twombly, 550 U.S. 544, 570 (2007)).
III. DISCUSSION
A. Standing
To establish Article III standing, a plaintiff must
have “(1) suffered an injury in fact, (2) that is fairly
traceable to the challenged conduct of the defendant,
and (3) that is likely to be redressed by a favorable
judicial decision.” Spokeo, Inc. v. Robins, 136 S. Ct.
1540, 1547 (2016). The plaintiff bears the burden of
proving these elements. Id.
The plaintiff’s injury must be “particularized” and
“concrete.” Id. at 1548. To be particularized, it “must
affect the plaintiff in a personal and individual way.”
Id. To be concrete, it must be real, not abstract. Id. at

58a
1548–49. A concrete injury can be tangible or intangible. Id. A plaintiff cannot “allege a bare procedural violation, divorced from any concrete harm, and satisfy
the injury-in-fact requirements of Article III.” Id. at
1549. A plaintiff does not “automatically satisf[y] the
injury-in-fact requirement whenever a statute grants
a person a statutory right and purports to authorize
that person to sue to vindicate that right.” Id. However, a statutory violation can confer standing when
the “alleged intangible harm has a close relationship
to a harm that has traditionally been regarded as
providing a basis for a lawsuit in English or American
courts.” Id. “In determining whether an intangible
harm constitutes injury in fact, both history and the
judgment of Congress play important roles.” Id. If a
plaintiff lacks Article III standing to pursue a claim,
then the claim must be dismissed for lack of subjectmatter jurisdiction. Steel Co. v. Citizens for a Better
Env’t, 523 U.S. 83, 101–02 (1998).
i. Wiretap Act, SCA, and CIPA
This Court previously found that Plaintiffs had established standing for their Wiretap Act, SCA, and
CIPA claims. MTD Order 13–15. Economic injury is
not required to establish standing under any of those
three statutes. See In re Google Inc. Gmail Litig., No.
13-md-02430-LHK, 2013 WL 5423918, at *16 (N.D.
Cal. Sept. 26, 2013) (“courts in this district have found
that allegations of a Wiretap Act violation are sufficient to establish standing”); In re iPhone Application
Litig., 844 F. Supp. 2d 1040, 1055 (N.D. Cal. 2012)
(“Other courts in this district have recognized that a
violation of the Wiretap Act or the Stored Communi-

59a
cations Act may serve as a concrete injury for the purposes of Article III injury analysis.”); Gaos v. Google,
Inc., No. 10-cv-4809-EJD, 2012 WL 1094646, at *3
(N.D. Cal. Mar. 29, 2012) (“a violation of one’s statutory rights under the SCA is a concrete injury”); Cal.
Penal Code § 637.2 (“It is not a necessary prerequisite
to an action pursuant to this section that the plaintiff
has suffered, or be threatened with, actual damages.”); In re Google Inc. Gmail Litig., 2013 WL
5423918, at *17 (“the Court finds that CIPA and the
Wiretap Act are not distinguishable for the purposes
of standing”).
Plaintiffs allege that Facebook “intercepts” and
“tracks” their internet communications in violation of
all three statutes. SAC ¶¶ 179–219. These allegations
are sufficient to confer standing for Plaintiffs’ Wiretap
Act, SCA, and CIPA claims.
ii. Trespass to Chattels, CDAFA, Fraud,
and Larceny
This Court previously found that Plaintiffs did not
establish standing for their claims for trespass to
chattels and violations of the CDAFA. MTD Order 8–
11. Unlike the statutory claims discussed above,
claims for trespass to chattels and CDAFA violations
require a showing of economic harm or loss. To prevail
on a claim for trespass to chattels based on access to
a computer system, a plaintiff must establish that (1)
the defendant intentionally and without authorization interfered with the plaintiff’s possessory interest
in the computer system and (2) the defendant’s unauthorized used proximately caused damage to the
plaintiff. eBay, Inc. v. Bidder’s Edge, Inc., 100 F.

60a
Supp. 2d 1058, 1069–70 (N.D. Cal. 2000). The property owner “may recover only the actual damages suffered by reason of the impairment of the property or
the loss of its use.” Id. at 1070 (quoting Itano v. Colonial Yacht Anchorage, 267 Cal. App. 2d 84, 90 (1968)).
Likewise, to prevail on a CDAFA claim, “Plaintiffs
must allege they suffered damage or loss by reason of
a violation of Section 502(c).” In re Google Android
Consumer Privacy Litig., No. 11-MD-02264-JSW,
2013 WL 1283236, at *5, *11 (N.D. Cal. Mar. 26, 2013)
(finding that the plaintiffs had standing to pursue a
CDAFA claim where they alleged that the defendant’s
conduct drained the batteries of their mobile devices).
In their SAC, Plaintiffs have added claims for
fraud (Cal. Civ. Code § 1572), constructive fraud (Cal.
Civ. Code § 1573), and larceny (Cal. Penal Code §§
484, 496). SAC ¶¶ 262–69, 286–95. As with claims for
trespass to chattels and violations of the CDAFA,
Plaintiffs’ fraud claims require a showing of actual
damage. See Rodriguez v. JP Morgan Chase & Co.,
809 F. Supp. 2d 1291, 1296 (S.D. Cal. 2011) (noting
that a § 1572 claim requires (1) misrepresentation, (2)
knowledge of falsity, (3) intent to defraud, (4) reliance,
and (5) resulting damage); Dealertrack, Inc. v. Huber,
460 F. Supp. 2d 1177, 1183 (C.D. Cal. 2006) (noting
that a § 1573 claim requires (1) a fiduciary or confidential relationship, (2) an act, omission, or concealment involving a breach of that duty, (3) reliance, and
(4) resulting damage). And Plaintiffs’ larceny claim
requires a showing of “an intent to permanently deprive an individual of his property.” Castillo-Cruz v.
Holder, 581 F.3d 1154, 1160–61 (9th Cir. 2009).

61a
This Court previously found that Plaintiffs have
not established a “realistic economic harm or loss that
is attributable to Facebook’s alleged conduct.” MTD
Order 10. Although Plaintiffs’ personal web browsing
information might have “some degree of intrinsic
value,” this Court held that Plaintiffs failed to show,
“for the purposes of Article III standing, that they personally lost the opportunity to sell their information
or that the value of their information was somehow
diminished after it was collected by Facebook.” Id.
The SAC contains no new facts that establish economic harm or loss. Nor does the SAC establish that
Facebook intended to permanently deprive Plaintiffs
of property of any sort. As such, Plaintiffs lack Article
III standing to pursue their claims for trespass to
chattels, violations of the CDAFA, fraud, and larceny.
These claims must be dismissed under Fed. R. Civ. P.
12(b)(1) for lack of subject-matter jurisdiction.
iii. Invasion of Privacy and Intrusion
upon Seclusion
Plaintiffs allege that Facebook committed privacy
tort violations by collecting URLs of pages that Plaintiffs visited and by using persistent cookies to associate Plaintiffs’ identities with their web browsing histories. SAC ¶¶ 68–78. Unlike the claims discussed in
the previous section, a plaintiff need not show actual
loss to establish standing for common-law claims of
invasion of privacy and intrusion upon seclusion. See,
e.g., Van Patten v. Vertical Fitness Grp., LLC, 847
F.3d 1037, 1043 (9th Cir. 2017) (noting that “[a]ctions
to remedy defendants’ invasions of privacy, intrusion
upon seclusion, and nuisance have long been heard by
American courts,” and finding that the plaintiffs had

62a
Article III standing to pursue their privacy claim); In
re Google Inc. Cookie Placement Consumer Privacy
Litig., 806 F.3d 125, 134 (3d Cir. 2015) (noting that
“the Supreme Court itself has permitted a plaintiff to
bring suit for violations of federal privacy law absent
any indication of pecuniary harm,” and finding that
the plaintiffs had Article III standing to pursue privacy tort claims arising from the defendant’s web
tracking activity). The Court finds that Plaintiffs’ alleged privacy violations are sufficient to establish
standing for Plaintiffs’ privacy tort claims.
iv. Breach of Contract and Breach of the
Duty of Good Faith and Fair Dealing
In the SAC, Plaintiffs add claims for breach of contract and breach of the duty of good faith and fair
dealing. Actual damages are not required to establish
standing for contractual claims. In re Facebook Privacy Litig., 192 F. Supp. 3d 1053, 1060–62 (N.D. Cal.
2016) (holding that Article III standing exists where
a plaintiff seeks to “recover nominal damages for
breach of contract even in the absence of actual damages” because the contractual claim alleges “a legal
wrong that is fully distinct from the actual damages”
(quoting Sweet v. Johnson, 169 Cal. App. 2d 630, 632
(1959)). The Court finds that Plaintiffs have standing
to pursue their claims for breach of contract and
breach of the duty of good faith and fair dealing.
B. Sufficiency of Allegations
i. Wiretap Act and CIPA
A claim under the Wiretap Act requires a showing
that the defendant “(1) intentionally (2) intercepted,

63a
endeavored to intercept or procured another person to
intercept or endeavor to intercept (3) the contents of
(4) an electronic communication, (5) using a device.”
Google Cookie Placement, 806 F.3d at 135 (citing 18
U.S.C. § 2510 et seq.).
Facebook contends that it did not “intercept”
Plaintiffs’ communications within the meaning of the
Wiretap Act. The Court agrees. The Wiretap Act provides that, with some exceptions, “[i]t shall not be unlawful . . . for a person not acting under color of law to
intercept a wire, oral, or electronic communication
where such person is a party to the communication.”
18 U.S.C. § 2511(2)(d) (emphasis added). Plaintiffs argue that Facebook’s acquisition of URL data constitutes an “interception” of Plaintiffs’ communications
with websites they visit. Pls.’ Opp’n to Def.’s Mot. to
Dismiss 13–14, Dkt. No. 104-3. But Plaintiffs’ argument misstates the means by which Facebook receives that data. As Facebook points out, two separate
communications occur when someone visits a page
where a Facebook “like” button is embedded. MTD
12–13. First, the user’s browser sends a GET request
to the server where the page is hosted. Second, as the
page loads, the code snippet for the Facebook button
triggers a second, independent GET request to Facebook’s servers. That second request contains the URL
of the page where the “like” button is embedded, as
well as the contents of cookies that Facebook has previously set on that user’s computer. The parties to the
first transaction are the web user (e.g., one of the
Plaintiffs) and the server where the page is located
(e.g., the server that handles requests for
http://www.cnn.com/). The parties to the second

64a
transaction are that same web user and a Facebook
server—but not cnn.com. As to the second transaction, Facebook has not “intercepted” the communication within the meaning of the Wiretap Act because it
is “a party to the communication” under 18 U.S.C. §
2511(2)(d). Facebook is not a party to the first communication (between the user and cnn.com), and it
does not intercept any data that those parties exchange. The fact that a user’s web browser automatically sends the same information to both parties does
not establish that one party intercepted the user’s
communication with the other. As such, the Court
finds that Plaintiffs have failed to state a claim under
the Wiretap Act.
Plaintiffs’ CIPA claims (under Cal. Crim. Code §§
631 and 632) fail for the same reason. See Google
Cookie Placement, 806 F.3d at 152 (finding that
eavesdropping claims under the CIPA were properly
dismissed for the same reason that those claims were
dismissed under the Wiretap Act). § 631 “broadly proscribes third party access to ongoing communications.” Powell v. Union Pac. R. Co., 864 F. Supp. 2d
949, 955 (E.D. Cal. 2012) (emphasis added). “California courts interpret ‘eavesdrop,’ as used in § 632, to
refer to a third party secretly listening to a conversation between two other parties.” Thomasson v. GC
Servs. Ltd. P’ship, 321 F. App’x 557, 559 (9th Cir.
2008) (emphasis added). Because Facebook did not intercept or eavesdrop on communications to which it
was not a party, Plaintiffs’ CIPA claims must be dismissed.

65a
ii. SCA
To state a claim under the SCA, a plaintiff must
show that the defendant “(1) intentionally accesses
without authorization a facility through which an
electronic communication service is provided; or (2)
intentionally exceeds an authorization to access that
facility.” 18 U.S.C. § 2701(a). The SCA defines “electronic storage” as “(A) any temporary, intermediate
storage of a wire or electronic communication incidental to the electronic transmission thereof; and (B)
any storage of such communication by an electronic
communication service for the purpose of backup protection of such communication.” 18 U.S.C. §
2510(17)(A), (B).
In their initial complaint, Plaintiffs argued that
Facebook’s persistent cookies were in “electronic storage” because they permanently resided in Plaintiffs’
web browsers. MTD Order 16–17. This Court rejected
Plaintiffs’ argument because Facebook’s cookies were
not in “temporary, intermediate storage.” MTD Order
16–17.
In their SAC, Plaintiffs now allege that URLs are
in “electronic storage” because they reside “in the
toolbar” and “in [the] browsing history” of Plaintiffs’
web browsers. SAC ¶¶ 206–07. Plaintiffs’ new allegations fare no better. The SCA “is specifically targeted
at communications temporarily stored by electronic
services incident to their transmission.” In re DoubleClick Inc. Privacy Litig., 154 F. Supp. 2d 497, 511–
12 (S.D.N.Y. 2001) (emphasis added). The SCA “only
protects electronic communications stored ‘for a limited time’ in the ‘middle’ of a transmission, i.e. when

66a
an electronic communication service temporarily
stores a communication while waiting to deliver it.”
Id. at 512; see also Google Cookie Placement, 806 F.3d
at 146 (finding that storage in a web browser on a personal computer is not “[t]emporary storage incidental
to transmission” within the meaning of the SCA).
URLs stored in a web browser’s toolbar or browsing
history are not stored “in the middle of a transmission.” Rather, they are stored locally on the user’s personal computer for the user’s convenience. For instance, a user might look through her browsing history to find a website she visited in the past. Similarly, the “toolbar” (or address bar) displays the URL
of the page that the user is currently viewing, but the
URL is stored independently of the transmission between a user’s browser and a remote web server.
Plaintiffs’ claim fails because the SCA applies to information that is temporarily stored “incident to [the]
transmission” of a communication; it does not apply
to information in local storage on a user’s computer.
Plaintiffs’ claim also fail because personal computers are not “facilities” under the SCA. See id. (“an individual’s personal computing device is not a ‘facility’
through which an electronic communications service
is provided . . . . a home computer of an end user is not
protected by the [SCA]” (quoting Garcia v. City of Laredo, Tex., 702 F.3d 788, 793 (5th Cir. 2012))). Moreover, Plaintiffs’ computers are not “electronic communication service” providers. See, e.g., In re Zynga, 750
F.3d at 1104 (holding that the SCA “covers access to
electronic information stored in third party computers”) (emphasis added); In re DoubleClick, 154 F.
Supp. 2d at 511 (“Clearly, the cookies’ residence on

67a
plaintiffs’ computers does not fall into § 2510(17)(B)
because plaintiffs are not ‘electronic communication
service’ providers.”).
Plaintiffs’ SCA claim must be dismissed.
iii. Invasion of Privacy and Intrusion
upon Seclusion
To state a claim for intrusion upon seclusion, a
plaintiff must show (1) that the defendant intentionally intruded into a place, conversation, or matter as
to which the plaintiff had a reasonable expectation of
privacy and (2) that the intrusion was “highly offensive” to a reasonable person. Hernandez v. Hillsdale,
47 Cal. 4th 272, 285 (2009). To state a claim for invasion of privacy under the California Constitution, a
plaintiff must establish (1) a specific, legally protected
privacy interest, (2) a reasonable expectation of privacy, and (3) a “sufficiently serious” intrusion by the
defendant. In re Vizio, Inc., Consumer Privacy Litig.,
No. 8:16-ml-02693-JLS-KES, 2017 WL 1836366, at
*17 (C.D. Cal. Mar. 2, 2017) (quoting Hill v. Nat’l Collegiate Athletic Ass’n, 7 Cal. 4th 1, 26 (1994)). When
both claims are present, courts conduct a combined
inquiry that considers “(1) the nature of any intrusion
upon reasonable expectations of privacy, and (2) the
offensiveness or seriousness of the intrusion, including any justification and other relevant interests.”
Hernandez, 47 Cal. 4th at 287.
Here, Plaintiffs have not established that they
have a reasonable expectation of privacy in the URLs
of the pages they visit. Plaintiffs could have taken
steps to keep their browsing histories private. For instance, as Facebook explained in its privacy policy,

68a
“[y]ou can remove or block cookies using the settings
in your browser.” MTD 6. Similarly, users can “take
simple steps to block data transmissions from their
browsers to third parties,” such as “using their browsers in ‘incognito’ mode” or “install[ing] plugin browser
enhancements.” In re Hulu Privacy Litig., No. C 1103764 LB, 2014 WL 2758598, at *8 (N.D. Cal. June
17, 2014). Facebook’s intrusion could have been easily
blocked, but Plaintiffs chose not to do so. In addition,
websites routinely embed content from third-party
servers in the form of videos, images, and other media, as well as through their use of analytics tools, advertising networks, code libraries and other utilities.
Each tool transmits to third parties the same data
that Plaintiffs claim is highly sensitive. Since these
requests are part of routine internet functionality and
can be easily blocked, the Court finds that they are
not a “highly offensive” invasion of Plaintiffs’ privacy
interests. See Low v. LinkedIn Corp., 900 F. Supp. 2d
1010, 2015 (N.D. Cal. 2012) (finding that LinkedIn
did not commit a “highly offensive” invasion of users’
privacy by disclosing users’ browsing histories to
third parties); In re Google, Inc. Privacy Policy Litig.,
58 F. Supp. 3d 968, 988 (N.D. Cal. 2014) (finding that
Google’s collection and disclosure of users’ data, including their browsing histories, “do not plausibly rise
to the level of intrusion necessary to establish an intrusion claim”); In re Nickelodeon Consumer Privacy
Litig., No. 12-07829, 2014 WL 3012873, at *19 (D.N.J.
July 2, 2014) (dismissing plaintiffs’ invasion-of-privacy claim because plaintiffs failed to show that defendants’ “collection and monetization of online information,” including users’ browsing histories, “would

69a
be offensive to the reasonable person, let alone exceedingly so”).
Plaintiffs raise specific allegations with respect to
a subclass of people who used the Internet Explorer
web browser (the “IE Subclass”). Under a protocol
called the Platform for Privacy Preferences Project (or
“P3P”), a website can publish a policy containing a
machine-readable version of the website’s privacy policy. SAC ¶¶ 86–88. Plaintiffs allege that, by default,
Internet Explorer blocked cookies from websites that
did not publish P3P policies, or from sites with policies that conflict with a user’s browser privacy settings. Id. ¶ 91. However, Internet Explorer allowed
cookies from websites that published policies that did
not conform to the syntax of the P3P protocol. Id. ¶ 94.
During the class period, Plaintiffs allege that Facebook’s P3P policy contained “the tokens DSP and
LAW, indicating that the Facebook privacy policy references a law that may determine remedies for
breaches of their privacy policy and that there are
ways to resolve privacy-related disputes.” Id. ¶ 95.
Plaintiffs allege that this policy did not accurately reflect Facebook’s cookie policies. Facebook later
changed its P3P policy to a string that stated: “Facebook does not have a P3P policy. Learn why here:
http://fb.me/p3p.” Id. ¶¶ 97–100. This second policy
does not conform to the P3P syntax. As a result, Internet Explorer allowed Facebook to set cookies on users’ computers.
Plaintiffs allege that Facebook adopted an “affirmatively false” P3P policy in order to trick Internet Explorer into allowing Facebook’s cookies to be stored on
users’ browsers. Id. ¶¶ 93–98. Facebook responds that

70a
it “did not circumvent technical barriers,” and in any
event, Plaintiffs have not alleged that any Plaintiff
actually used the versions of Internet Explorer that
implemented P3P. MTD 27 n.15.
Plaintiffs’ argument would compel Facebook to
adopt the P3P protocol and publish a policy with specific contents. But adoption of P3P is voluntary: Facebook can choose to publish a machine-readable version of its privacy policy, but it has no legal duty to do
so. Similarly, browser manufacturers can choose to
support the P3P protocol, but they have no power to
require websites to publish P3P policies, or to dictate
the contents of those policies. In this respect, the facts
are different from the scenario underlying the Third
Circuit’s decision in Google Cookie Placement. There,
the Plaintiffs alleged that Google deliberately circumvented cookie-blocking settings in users’ browsers,
while claiming that it respected users’ decisions to
“[set] your browser to refuse all cookies.” 806 F.3d at
150. “Characterized by deceit and disregard,” the
court held, “the alleged conduct raises different issues
than tracking or disclosure alone.” Id. On that basis,
the court found that the plaintiffs had stated claims
for intrusion upon seclusion and invasion of privacy
under the California Constitution. Id. at 151. The
claims here are different. Unlike the allegations in
Google Cookie Placement, Facebook never promised
to adopt the P3P protocol. Rather, Facebook publicly
stated that it “does not have a P3P policy.” SAC ¶ 100;
see also id. ¶ 99 (quoting a public statement in which
Facebook indicated that it chose not to adopt P3P because the protocol does not “allow a rich enough description to accurately represent our privacy policy”).

71a
Because Facebook had no obligation to adopt P3P, the
Court finds that Plaintiffs have not stated claims for
privacy tort violations as to the IE subclass.
iv. Breach of Contract and Breach of the
Duty of Good Faith and Fair Dealing
Plaintiffs allege that Facebook “breached its contract with Plaintiffs and each of the Class members
by tracking and intercepting” their communications
with third-party websites. SAC ¶ 250. The relevant
contract during the class period was Facebook’s
“Statement of Rights and Responsibilities” (“SRR”).
Id. ¶ 17. Plaintiffs allege that Facebook’s privacy policy was incorporated by reference into the SRR, and
that some of Facebook’s “help pages” were also incorporated by reference. Id. ¶ 20, 23. According to Plaintiffs, “[o]ne help page entry provided more detail related to Facebook’s use of cookies,” and Facebook “represented in the social plug-in discussion that ‘when
you log out of Facebook, we remove the cookies that
identify your particular account.’ ” Id. ¶ 23.
Other than general references to “help pages” and
a “social plug-in discussion,” Plaintiffs fail to explain
where or when these statements appeared. Plaintiffs
also fail to explain how these statements were incorporated into the binding SRR, other than by reference
in the complaint to a “layered approach” through
which Facebook made its policies easier to understand by “summarizing our practices on the front page
and then allowing people to click through the Policy
for more details.” Id. ¶ 22. Plaintiffs do not, for instance, identify a trail of links leading from the SRR
to the statements it identifies.

72a
“In an action for breach of a written contract, a
plaintiff must allege the specific provisions in the contract creating the obligation the defendant is said to
have breached.” Woods v. Google Inc., No. 05:11-cv1263-JF, 2011 WL 3501403, at *3 (N.D. Cal. Aug. 10,
2011). Statements “spread across a variety of pages in
a variety of formats make it difficult to identify the
terms of any actual and unambiguous contractual obligations.” Id. at *4. Because Plaintiffs have not identified the specific contractual provisions they allege
were breached, Plaintiffs’ breach-of-contract claim
will be dismissed with leave to amend.
Plaintiffs’ claim for breach of the duty of good faith
and fair dealing also fails. “[T]he implied covenant of
good faith and fair dealing ‘cannot impose substantive
duties or limits on the contracting parties beyond
those incorporated in the specific terms of their agreement.’” Rosenfeld v. JPMorgan Chase Bank, N.A., 732
F. Supp. 2d 952, 968 (N.D. Cal. 2010) (quoting Agosta
v. Astor, 120 Cal. App. 4th 596, 607 (2004)). Plaintiffs
have not identified the terms of the agreement that
imposed a duty on Facebook not to engage in the
tracking activity at issue. As such, Plaintiffs’ breachof-duty claim will also be dismissed with leave to
amend.
IV. CONCLUSION
The Court orders as follows:
1. Facebook’s motion to dismiss Plaintiffs’ claims
for trespass to chattels (SAC ¶¶ 270–73), violations of
the CDAFA (SAC ¶¶ 274–85), fraud (SAC ¶¶ 262–69),
and larceny (SAC ¶¶ 286–95) is GRANTED without

73a
leave to amend for lack of standing under Fed. R. Civ.
P. 12(b)(1).
2. Facebook’s motion to dismiss Plaintiffs’ claims
for violations of the Wiretap Act (SAC ¶¶ 179–92), violations of the SCA (SAC ¶¶ 193–208), violations of
the CIPA (SAC ¶¶ 209–19), invasion of privacy (SAC
¶¶ 220–31), and intrusion upon seclusion (SAC ¶¶
232–41) is GRANTED without leave to amend for failure to state a claim under Fed. R. Civ. P. 12(b)(6).
3. Facebook’s motion to dismiss Plaintiffs’ claims
for breach of contract (SAC ¶¶ 242–52) and breach of
the duty of good faith and fair dealing (SAC ¶¶ 253–
61) is GRANTED with leave to amend.
4. Facebook’s motion for a protective order temporarily staying further discovery (Dkt. No. 108) is DENIED.
5. Plaintiffs’ motion to compel discovery (Dkt. No.
110) is TERMINATED and may be refiled in accordance with the procedures of the assigned magistrate
judge.
IT IS SO ORDERED.
Dated: June 30, 2017
/s/
EDWARD J. DAVILA
United States District Judge

74a
APPENDIX D
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
SAN JOSE DIVISION
IN RE
FACEBOOK INTERNET TRACKING LITIGATION

Case No. 5:12-md02314-EJD
ORDER GRANTING
DEFENDANT’S MOTION TO DISMISS
Re: Dkt No. 44

Facebook, Inc. (“Facebook”) operates an online “social network” that permits its members to interact
with each other through a website - www.facebook.com. Id. at ¶ 9. This consolidated, multi-district
lawsuit against the social network, brought by and on
behalf of individuals with active Facebook accounts
from May 27, 2010, through September 26, 2011 (the
“Class Period”), seeks “in excess of $15 billion in damages and injunctive relief” and “arises from Facebook’s knowing interception of users’ internet communications and activity after logging out of their Facebook accounts.” See Corrected First Am. Consolidated
Class Action Compl. (“CCAC”), Docket Item No. 35, at
¶ 1. Plaintiffs Perrin Davis, Cynthia Quinn, Brian
Lentz, and Matthew Vickery (collectively, “Plaintiffs”), each of whom had an active Facebook account
during the entire Class Period, allege that Facebook
tracked and stored their post-logout internet usage
using small text files - or “cookies” - which Facebook

75a
had embedded in their computers’ browsers. Id. at ¶¶
103-106.
Federal jurisdiction arises pursuant to 28 U.S.C.
§§ 1331 and 1332(d). Presently before the court is Facebook’s Motion to Dismiss pursuant to Federal Rules
of Civil Procedure 12(b)(1) and 12(b)(6). See Docket
Item No. 44. Plaintiffs oppose the motion. Having
carefully considered the parties’ arguments, the court
has concluded that Facebook’s arguments are meritorious. Accordingly, the motion will be granted for the
reasons explained below.
I. BACKGROUND
A. “Cookies”
As noted, a “cookie” is a small text file that a server
creates and sends to a browser, which then stores the
file in a particular directory on an individual’s computer. Id. at ¶ 38. A cookie contains a limited amount
of information which can relate to the browser or to a
specific individual. Id. at ¶¶ 38, 39.
When an individual using a web browser contacts
a server - often represented by a particular webpage
or internet address - the browser software checks to
see if that server has previously set any cookies on the
individual’s computer. Id. at ¶ 39. If the server recognizes any valid, unexpired cookies, then the computer
“sends” those cookies to the server. Id. at ¶ 39. After
examining the information stored in the cookie, the
server knows if it is interacting with a computer with
which it has interacted before. Id. at ¶ 41. Since servers create database records that correspond to individuals, sessions and browsers, the server can locate

76a
the database record that corresponds to the individual, session or browser using the information from the
cookie. Id.
B. Facebook and its Use of “Cookies”
Plaintiffs allege that Facebook is the brainchild of
the company’s founder, Mark Zuckerberg, who wrote
the first version of “The Facebook” in his Harvard
University dorm room and later launched Facebook
as a company in 2004. Id. at ¶ 10. Since then, Facebook has become the largest social networking site in
the world with other 800 million users world-wide and
over 150 million users in the United States. Id. at ¶
11. According to Plaintiffs, the key to this success
“was to convince people to create unique, individualized profiles with such personal information as employment history and political and religious affiliations, which then could be shared among their own
network of family and friends.” Id. at ¶ 10. Facebook
uses this repository of personal data to connect advertisers with its users. Id. at ¶ 12. Historically, 90% of
Facebook’s revenue is attributable to third-party advertising and “Facebook is driven to continue to find
new and creative ways to leverage its access to users’
data in order to sustain its phenomenal growth.” Id.
at ¶ 13.
Facebook does not charge a fee for membership. Id.
at ¶ 14. However, Plaintiffs contend that Facebook
membership is not free. Id. at ¶ 14. Specifically, they
allege that through the Statement of Rights and Responsibilities and other documents and policies governing use of the website, “Facebook conditions its

77a
membership upon users providing sensitive and personal information . . . including name, birth date, gender and email address,” and requires that users accept numerous Facebook cookies on their computers.
Id. at ¶¶ 14, 16. These cookies allow Facebook to intercept a user’s electronic communications and track
internet browsing history. Id.
Facebook cookies come in two flavors. The first is
a “session cookie,” which is set when a user logs into
Facebook. Id. at ¶ 15. It is directly associated with a
user’s Facebook account and contains unique information, such as the user’s Facebook identification. Id.
Session cookies are supposed to be deleted when the
user logs out of Facebook. Id.
The second type is a “tracking cookie,” which is
also known as a persistent cookie. Id. This cookie
sends data back to Facebook any time an individual
makes a request of www.facebook.com, such as when
an individual accesses a page with the Facebook “like”
button. Id. The tracking takes place, however, regardless of whether the individual actually interacts with
the “like” button; “[i]n effect, Facebook is getting details of where you go on the Internet.” Id. Tracking
cookies do not expire when a user logs out of Facebook. Id. In fact, Facebook sets these cookies on an
individual’s computer whether or not they have a Facebook account. Id.
When a Facebook user leaves the Facebook
webpage without logging out and then browses the
web, both tracking cookies (such as a “datr” cookie)
and session cookies (such as a “c_user” cookie) are left

78a
to operate on the computer. Id. Under those circumstances, Facebook is notified through the datr cookie
whenever the user loads a page with embedded content from Facebook, and also can easily connect that
data back to the user’s individual Facebook profile
through the c_user cookie. Id.
For example, if a logged-in Facebook user accesses
the news website www.cnn.com through the browser
on his or her computer, the CNN server responds with
the file for the CNN homepage, which also contains
embedded code from Facebook. Id. at ¶¶ 59, 60. The
user’s browser, triggered by the Facebook code, sends
a request to the Facebook server to display certain
content on the CNN webpage, such as the Facebook
“like” button. Id. at ¶ 61. This request also includes
information contained in the user’s datr and c_user
cookies as well as the specific details of the webpage
that the user accessed. Id. at ¶ 63. When Facebook
receives this information, the Facebook server adds it
to its database records for the browser and the user.
Id. at ¶ 67. The Facebook server then responds by
sending the requested content to the user’s browser.
Id. at ¶ 70.
C. Facebook Tracks Logged-Out Users
Aside from tracking logged-in users, Plaintiffs allege that Facebook has also intentionally tracked users’ browsing activity after they logged-out of the Facebook website despite contrary representations in
the social network’s governing materials. Id. at ¶ 17.
Facebook is able to engage in such tracking though
the persistent datr cookie its server embeds after the
user accesses www.facebook.com. Id. at ¶ 73.

79a
Again using the CNN website as an example, if a
user logs out of Facebook and then directs his or her
computer’s browser to www.cnn.com, the CNN server
responds in much the same way as if the user was still
logged-in to Facebook: by sending to the browser a file
with the contents of the CNN website which contains
a piece of Facebook code pertaining to the “like” button. Id. at ¶¶ 72-75. The browser, triggered by the Facebook code, sends a request to the Facebook server to
display the “like” button on the CNN webpage. Id. at
¶ 77. This request also includes any personally identifiable information contained in cookies associated
with the browser, such as the datr cookie. Id. at ¶ 78.
The Facebook server then creates a database log entry of the request, stores the cookie information it received, and responds by sending the content requested for display on the CNN website. Id. at ¶¶ 7882.
Plaintiffs allege the information Facebook receives
through tracking logged-out users is specific enough
to identify the user without the need for an additional
Facebook cookie containing the user’s identification.
Id. at ¶ 83. Indeed, they allege that “[f]rom the first
time a Facebook user logs into Facebook and the datr
tracking cookie is set on his machine, all of that user’s
browsing to Facebook partner sites using that
browser is linked by Facebook back to that user because the datr tracking cookie contains a unique number, which is also unique to that particular user’s
browser and his specific computer or mobile device,
that indexes into the Facebook database which tracks
users and browser sessions both on computers and
mobile devices such as Android cell phones, iPhones,

80a
iPads, and the iPod Touch.” Id. Furthermore, Plaintiffs believe that Facebook implemented a P3P “compact policy”1 that circumvented privacy settings on
Microsoft’s Internet Explorer (“IE”) browser to allow
Facebook’s cookies, thereby ensuring that IE would
transmit information from Facebook cookies back to
the Facebook server when users visited affiliated nonFacebook websites. Id. at ¶¶ 101, 102.
Plaintiffs contend that the personal information
Facebook receives from its users, including users’
browsing history, has “massive economic value” and
that a market exists for such information. Id. at ¶¶
112, 122-124. They point out that “internet giant”
Google, Inc. conducts a panel called “Google Screenwise Trends,” the purpose of which is “to learn more
about how everyday people use the Internet.” Id. at ¶
118. Through this program, internet users consent to
share with Google the websites they visit and how
they use them in exchange for gift cards, “mostly valued at exactly $5.” Id. at ¶¶ 119, 121.
Plaintiffs further allege the value of their personal
information can be quantified. Id. at ¶ 116. Based on
a study published in 2011, Plaintiffs allege that the
contact information users must provide to Facebook
when becoming a member is worth $4.20 per year. Id.
In addition, demographic information is worth $3.00
According to the CCAC, “P3P” refers to the Platform for Privacy
Preferences, which is a standard format for computer-readable
privacy policies published by the World Wide Web Consortium
in 2002. See CCAC, at ¶ 86. A P3P “compact policy” is a computer-readable encoded version of the portion of a privacy policy
relating to cookies. Id.
1

81a
per year and web browsing histories are worth $52.00
per year. Id. Aggregated across Facebook’s approximately 800 million users, these values translate into
membership “fees” of $3.36 billion, $2.4 billion and
$41.6 billion, respectively, for each category of information. Id.
D. Relevant Procedural History
A number of cases challenging Facebook’s tracking
practices were filed in and outside this district. They
were eventually transferred to the undersigned. The
court consolidated the cases for pretrial consideration
and appointed interim class counsel. See Docket Item
No. 19. Plaintiffs thereafter filed the CCAC, which is
the currently operative pleading. See Docket Item No.
35. This motion followed.
II. LEGAL STANDARD
A. Federal Rule of Civil Procedure 12(b)(1)
A Rule 12(b)(1) motion challenges subject matter
jurisdiction and may be either facial or factual. Wolfe
v. Strankman, 392 F.3d 358, 362 (9th Cir.2004). A facial 12(b)(1) motion involves an inquiry confined to
the allegations in the complaint, whereas a factual
12(b)(1) motion permits the court to look beyond the
complaint to extrinsic evidence. Id. When, as here, a
defendant makes a facial challenge, all material allegations in the complaint are assumed true, and the
court must determine whether lack of federal jurisdiction appears from the face of the complaint itself.
Thornhill Publ’g Co. v. General Tel. Elec., 594 F.2d
730, 733 (9th Cir.1979).

82a
Standing is properly challenged through a Rule
12(b)(1) motion. White v. Lee, 227 F.3d 1214, 1242
(9th Cir. 2000). “A plaintiff has the burden to establish that it has standing.” WildEarth Guardians v.
United States Dep’t of Agric., 795 F.3d 1148, 1154
(9th Cir. 2015).
B. Federal Rule of Civil Procedure 12(b)(6)
Federal Rule of Civil Procedure 8(a) requires a
plaintiff to plead each claim with sufficient specificity
to “give the defendant fair notice of what the . . . claim
is and the grounds upon which it rests.” Bell Atl.
Corp. v. Twombly, 550 U.S. 544, 555 (2007) (internal
quotations omitted). Although particular detail is not
generally necessary, the factual allegations “must be
enough to raise a right to relief above the speculative
level” such that the claim “is plausible on its face.” Id.
at 556-57. A complaint which falls short of the Rule
8(a) standard may be dismissed if it fails to state a
claim upon which relief can be granted. Fed. R. Civ.
P. 12(b)(6). “Dismissal under Rule 12(b)(6) is appropriate only where the complaint lacks a cognizable legal theory or sufficient facts to support a cognizable
legal theory.” Mendiondo v. Centinela Hosp. Med.
Ctr., 521 F.3d 1097, 1104 (9th Cir. 2008).
When deciding whether to grant a motion to dismiss, the court usually “may not consider any material beyond the pleadings.” Hal Roach Studios, Inc. v.
Richard Feiner & Co., 896 F.2d 1542, 1555 n. 19 (9th
Cir.1990). However, the court may consider material
submitted as part of the complaint or relied upon in
the complaint, and may also consider material subject

83a
to judicial notice. See Lee v. City of Los Angeles, 250
F.3d 668, 688-89 (9th Cir. 2001).
In addition, the court must generally accept as
true all “well-pleaded factual allegations.” Ashcroft v.
Iqbal, 556 U.S. 662, 664 (2009). The court also must
construe the alleged facts in the light most favorable
to the plaintiff. Love v. United States, 915 F.2d 1242,
1245 (9th Cir.1988). But “courts are not bound to accept as true a legal conclusion couched as a factual
allegation.” Id. Nor must the court accept as true “allegations that contradict matters properly subject to
judicial notice or by exhibit” or “allegations that are
merely conclusory, unwarranted deductions of fact, or
unreasonable inferences.” In re Gilead Scis. Sec.
Litig., 536 F.3d 1049, 1055 (9th Cir. 2008).
III. DISCUSSION
Plaintiffs assert the following claims in the CCAC:
(1) violation of the Federal Wiretap Act, 18 U.S.C. §
2510 et seq.; (2) violation of the Stored Communications Act (“SCA”), 18 U.S.C. § 2701 et seq.; (3) violation of the Computer Fraud and Abuse Act (“CFAA”),
18 U.S.C. § 10302; (4) invasion of privacy; (5) intrusion
upon seclusion; (6) conversion; (7) trespass to chattels;
(8) violation of California’s Unfair Competition Law
(“UCL”), Business and Professions Code § 17200 et
seq.; (9) violation of the California Computer Crime
Law (“CCCL”), Penal Code § 502; (10) violation of the
California Invasion of Privacy Act (“CIPA”), Penal
Code § 630 et seq.; and (11) violation of California’s
Plaintiffs have withdrawn this claim. It will therefore be dismissed without leave to amend.

2

84a
Consumer Legal Remedies Act (“CLRA”), Civil Code §
1750.
Under Rule 12(b)(1), Facebook argues that all of
these claims fail for lack of standing. Under Rule
12(b)(6), Facebook further argues that the fraudbased claims lack the factual specificity required by
Federal Rule of Civil Procedure 9(b), and that Plaintiffs have not stated an actionable claim. These arguments are discussed below.
A. Standing
i. Constitutional Standing
The constitutional standing doctrine “functions to
ensure, among other things, that the scarce resources
of the federal courts are devoted to those disputes in
which the parties have a concrete stake.” Friends of
the Earth, Inc. v. Laidlaw Envtl. Servs., Inc., 528 U.S.
167, 191 (2000). Generally, the inquiry critical to any
standing issue is “‘whether the litigant is entitled to
have the court decide the merits of the dispute or of
particular issues.’” Allen v. Wright, 468 U.S. 737, 75051 (1984) (quoting Warth v. Seldin, 422 U.S. 490, 498
(1975)). Standing under Article III of the Constitution
has three basic elements: (1) an “injury in fact,” which
is neither conjectural or hypothetical, (2) causation,
such that a causal connection between the alleged injury and offensive conduct is established, and (3) redressability, or a likelihood that the injury will be redressed by a favorable decision. Lujan v. Defenders of
Wildlife, 504 U.S. 555, 560-61 (1992).
Noting the lack of allegations that anyone was
willing to pay for their personal information or that

85a
its purported conduct lessened the value of that information or affected its marketability, Facebook argues
that Plaintiffs have not established a cognizable injury in fact. To satisfy the “injury in fact” element,
“the plaintiff must show that he personally has suffered some actual or threatened injury as a result of
the putatively illegal conduct of the defendant.” Gladstone Realtors v. Village of Bellwood, 441 U.S. 91, 100
(1979). Moreover, since this is a class action, at least
one of the named plaintiffs must have suffered an injury in fact. See Lierboe v. State Farm Mut. Auto. Ins.
Co., 350 F.3d 1018, 1022 (9th Cir. 2003) (“[I]f none of
the named plaintiffs purporting to represent a class
establishes the requisite of a case or controversy with
the defendants, none may seek relief on behalf of himself or any other member of the class.”).
When confronted with data privacy claims similar
to the ones brought by Plaintiffs, courts have found
insufficient for standing purposes generalized assertions of economic harm based solely on the alleged
value of personal information. In LaCourt v. Specific
Media, Inc., No. SACV 10-1256-GW(JCGx), 2011 U.S.
Dist. LEXIS 50543, 2011 WL 1661532 (C.D. Cal. Apr.
28, 2011), the plaintiffs alleged that Specific Media,
“an online third party ad network that earns its revenue by delivering targeted advertisements,” stored
cookies on their computers, which it then used to collect browsing history information in order to create
behavioral profiles and target specific categories of
ads at different users. LaCourt, 2011 U.S. Dist.
LEXIS 50543, at *2. The plaintiffs also claimed that
Specific Media’s conduct caused them economic loss
“in that their personal information has discernable

86a
value” of which they were deprived, and which Specific Media retained and used for its own benefit. Id.
at *3-4. Specific Media moved to dismiss the complaint for lack of Article III standing under Rule
12(b)(1), arguing that the plaintiffs’ theory of economic harm did not make out an injury in fact. Id. at
*7.
The district court agreed with Specific Media and
dismissed the complaint. The court determined that,
while it “probably would decline to say that it is categorically impossible for [the plaintiffs] to allege some
property interest that was compromised” by Specific
Media’s information collection practices, the plaintiffs
had not alleged they were actually deprived of the economic value of their browsing histories. Id. at *11. The
court reasoned this was so because the plaintiffs had
not cited “some particularized example” of “a single
individual who was foreclosed from entering into a
‘value-for-value exchange’ as a result of Specific Media’s alleged conduct,” or explained how they were deprived of the information’s value simply because it
was collected by a third party. Id. at *11-12.
A similar conclusion was reached in Low v.
LinkedIn Corporation, No.11-CV-01468-LHK, 2011
U.S. Dist. LEXIS 130840, 2011 WL 5509848 (N.D.
Cal. Nov. 11, 2011). There, the plaintiff alleged economic loss from LinkedIn’s practice of transmitting
users’ personal information, such as the name of each
user and his or her profile viewing history, to third
party tracking cookies which allowed the recipients to
aggregate the data. Low, 2011 U.S. Dist. LEXIS
130840, at *3-4. Relying on LaCourt, the court found

87a
the plaintiff’s allegations “too abstract and hypothetical to support Article III” standing. Id. at *10. The
court reasoned that the plaintiff failed to demonstrate
that he personally suffered some type of real economic
harm due to the transmission of his personal information. Id. at *12-15.
An out-of-circuit case, In re Google Inc. Cookie
Placement Consumer Privacy Litigation (“Google
Cookie Placement”), 988 F. Supp. 2d 434 (D. Del. Oct.
9, 2013), is also of note. The plaintiffs in that case alleged that Google had employed third-party cookies to
track consumer internet browsing for use in targeted
advertising without first obtaining consent to do so.
988 F. Supp. 2d at 440. Much like the district court
did in LaCourt, the Delaware district court accepted
the plaintiffs’ contention that their personally identifiable information had “some modicum of identifiable
value to an individual plaintiff.” Id. at 442. But the
court found that value alone was insufficient to establish Article III standing, explaining that the plaintiffs
had not “sufficiently alleged that the ability to monetize their [personally identifiable information had]
been diminished or lost by virtue of Google’s collection
of it.” Id.
The court finds these decisions instructive mainly
because Plaintiffs’ allegations are virtually indistinguishable from those rejected in LaCourt, Low and
Google Cookie Placement. Like the plaintiffs in those
cases, Plaintiffs allege that the information collected
by Facebook’s cookies have economic value and, if the
study cited in the CCAC is accurate, that value may
be significant when user information is aggregated.
The court accepts as true Plaintiffs’ ascription of some

88a
degree of intrinsic value to their personal information
for this motion. But what Plaintiffs have failed to do
is adequately connect this value to a realistic economic harm or loss that is attributable to Facebook’s
alleged conduct. In other words, Plaintiffs have not
shown, for the purposes of Article III standing, that
they personally lost the opportunity to sell their information or that the value of their information was
somehow diminished after it was collected by Facebook.
Unlike other data privacy cases, Plaintiffs have alleged the existence of a limited market for their
browsing histories. That allegation, however, is still
not enough to establish a qualifying injury in fact.
That programs may exist to compensate internet users with $5 gift cards in exchange for monitoring their
browsing activity is a fact of little assistance to Plaintiffs when they have not also alleged an inability to
participate in these programs after Facebook collected their information.3
Nor do the allegations of consequential damages
incurred by one plaintiff, Davis, provide a persuasive
basis to find a sufficiently-pled injury in fact. Other
than a conclusory allegation deeming it so, it is not
Notably, this reasoning is unaffected by Ninth Circuit’s 2014
limited standing discussion in In re Facebook Privacy Litigation,
572 Fed. Appx. 494 (2014). A review of the facts of that case, as
illustrated in the companion opinion In re Zynga Privacy Litigation, 750 F.3d 1098 (2014), reveals that Facebook was disclosing
identifying information to third-party websites in referer headers. Given that no such disclosure is alleged here, any Article III
standing determination made in Facebook Privacy Litigation is
inapplicable to this case.
3

89a
apparent how charges for an email service which
alerts users when Facebook makes changes to its privacy policy or privacy settings are “fairly traceable” to
the conduct alleged in the complaint.4 See Lujan, 504
U.S. at 560. Moreover, the allegations related to the
monitoring service are too vague without a specified
timeframe describing when these damages accrued.
As pled, the CCAC only alludes to injury that is
conjectural or hypothetical. Since Plaintiffs have not
demonstrated that Facebook’s conduct resulted in
some concrete and particularized harm, they have not
articulated a cognizable basis for standing pursuant
to Article III.
ii. Statutory Standing
For their part, Plaintiffs do not directly address
Facebook’s constitutional standing argument, choosing instead to focus on statutory standing. Thus, the
issue becomes whether any of the statutory claims asserted in the CCAC can satisfy the federal standing
requirement.
Although it cannot be supplanted by a statute, an
Article III injury can exist solely by virtue of “statutes
creating legal rights, the invasion of which creates
standing.” Edwards v. First Am. Corp., 610 F.3d 514,
517 (9th Cir. 2010); see Raines v. Byrd, 521 U.S. 811,
4 In their opposition, Plaintiffs raise several new facts relating
to consequential damages and other issues. Those facts have no
bearing on whether the CCAC is adequate. See Schneider v. Cal.
Dep’t of Corr., 151 F.3d 1194, 1197 n.1 (9th Cir. 1998) (“The ‘new’
allegations contained in the . . . opposition motion . . . are irrelevant for Rule 12(b)(6) purposes.”).

90a
820 n.3 (1997) (“Congress cannot erase Article III’s
standing requirements by statutorily granting the
right to sue to a plaintiff who would not otherwise
have standing.”). The relevant question in such circumstances is “whether the constitutional or statutory provision on which the claim rests properly can
be understood as granting persons in the plaintiff’s
position a right to judicial relief.” Id.
So-called “statutory standing” can be established
by pleading a violation of a right conferred by statute
so long as the plaintiff alleges “a distinct and palpable
injury to himself, even if it is an injury shared by a
large class of other possible litigants.” Warth, 522
U.S. at 501. Whether or not a plaintiff has stated a
basis for statutory standing is tested under Rule
12(b)(6) rather than Rule 12(b)(1). Maya v. Centex
Corp., 658 F.3d 1060, 1067 (9th Cir. 2011).
Here, Plaintiffs’ arguments in support of statutory
standing are uncompelling for several of their claims.
First, it is axiomatic that standing permitted by statute does not translate into standing for common law
claims. See Davis v. Fed. Election Comm’n, 554 U.S.
724, 734 (2008) (holding that standing is not “dispensed in gross” and must be established for each
claim and each form of relief). Thus, all of the common
law claims asserted in the CCAC which rely on economic harm related to the loss of personal information
as an element of damages, in particular the claims for
conversion and trespass to chattels, are subject to dis-

91a
missal for lack of constitutional standing under Article III.5 See Low, 2011 U.S. Dist. LEXIS 130840, at *2
(dismissing similar common law claims for lack of Article III standing).
Second, the court agrees with Facebook that three
of Plaintiffs’ statutory claims, those for violation of
the UCL, CLRA and the CCCL, require a plausible
economic injury for standing. Reid v. Johnson & Johnson, 780 F.3d 952, 958 (9th Cir. 2015) (“To establish
standing to bring a claim under [the UCL and CLRA],
plaintiffs must meet an economic injury-in-fact requirement, which demands no more than the corresponding requirement under Article III of the U.S.
Constitution.”); Cal. Penal Code § 502(e) (conferring
standing to bring a civil action on owners or lessees of
In any event, the claims for invasion of privacy and intrusion
upon seclusion are also subject to dismissal for failure to state a
claim even if Plaintiffs rely on some other form of damage for
these claims. To the extent they can be considered separate
claims - a concept which is itself questionable - both require “(1)
intrusion into a private place, conversation or matter, (2) in a
manner highly offensive to a reasonable person.” Shulman v.
Group W Prods., Inc., 18 Cal. 4th 200, 214 & n.4 (1996); Hill v.
Nat’l Collegiate Athletic Ass’n, 7 Cal. 4th 1, 66 (1994). To establish the first element, the plaintiff must have had an actual, subjective expectation of seclusion that was objectively reasonable.
Med Lab. Mgmt. Consultants v. ABC, Inc., 306 F.3d 806, 812-13
(9th Cir. 2002). Under the current allegations, Plaintiffs could
not have held a subjective expectation of privacy in their browsing histories that was objectively reasonable because “Internet
users have no expectation of privacy in the . . . IP addresses of
the websites they visit . . . .” United States v. Forrester, 512 F.3d
500, 510 (9th Cir. 2007). Plaintiffs “should know that this information is provided to and used by Internet service providers for
the specific purpose of directing the routing of information.” Id.
5

92a
a “computer, computer system, computer network,
computer program, or data who suffer[] damage or
loss by reason of a violation” of the CCCL). Consequently, the statutory standing analysis for these
claims coincides with the Article III analysis.
The three remaining statutory claims are different, however, because economic injury is not a prerequisite for standing under their provisions. See Chapman v. Pier 1 Imps. (U.S.), Inc., 631 F.3d 939, 947
(2011) (“The existence of federal standing ‘often turns
on the nature and source of the claim asserted.’”). As
to the Wiretap Act, “courts in this district have found
that allegations of a Wiretap Act violation are sufficient to establish standing.” In re Google Inc. Gmail
Litig., No. 13-MD-02430-LHK, 2013 U.S. Dist. LEXIS
172784, at *63, 2013 WL 5423918 (N.D. Cal. Sept. 26,
2013); 18 U.S.C. § 2520(a) (“[A]ny person whose wire,
oral, or electronic communication is . . . disclosed . . .
may in a civil action recover from the person or entity
. . . such relief as may be appropriate.”). The same is
true of the SCA. In re iPhone Application Litig., 844
F. Supp. 2d 1040, 1055 (N.D. Cal. 2012) (“Other courts
in this district have recognized that a violation of the
Wiretap Act or the Stored Communications Act may
serve as a concrete injury for the purposes of Article
III injury analysis.”); Gaos v. Google, Inc., No. 5:10CV-4809 EJD, 2012 U.S. Dist. LEXIS 44062, at *9,
2012 WL 109446 (N.D. Cal. Mar. 29, 2012) (“Thus, a
violation of one’s statutory rights under the SCA is a
concrete injury.”); 18 U.S.C. § 2707(a) (“[A]ny . . . person aggrieved by any violation of this chapter in which
the conduct constituting the violation is engaged in
with a knowing or intentional state of mind may, in a

93a
civil action, recover from the person or entity . . .
which engaged in that violation such relief as may be
appropriate.”). And because it specifically excludes
economic damages as a precursor to liability, the
court concludes that allegations of a CIPA violation
sufficiently establish standing under that statute as
well. Cal. Penal Code § 637.2 (“It is not a necessary
prerequisite to an action pursuant to this section that
the plaintiff has suffered, or be threatened with, actual damages.”); In re Google Inc. Gmail Litig., 2013
U.S. Dist. LEXIS 172784, at *67 (“[T]he Court finds
that CIPA and the Wiretap Act are not distinguishable for the purposes of standing.”).
Here, Plaintiffs allege that Facebook intercepted
and tracked their internet activity and acquired this
information after they logged out of the Facebook
website using the datr cookie embedded on their computers. Plaintiffs also assert this conduct violated the
Wiretap Act, SCA and CIPA. Consistent with other
district courts to have examined statutory standing to
bring similar claims, this court finds Plaintiffs’ allegations sufficient to make out a distinct and palpable
injury considering the conduct prohibited by those
statutes. In re Facebook Privacy Litig., 791 F. Supp.
2d 705, 712 (N.D. Cal. 2011) (“The Wiretap Act provides that any person whose electronic communication is ‘intercepted, disclosed, or intentionally used’ in
violation of the Act may in a civil action recover from
the entity which engaged in that violation.”); Gaos,
2012 U.S. Dist. LEXIS 44062, at *8 (explaining that
the SCA “prohibits an electronic communication service from divulging the contents of a communication

94a
in electronic storage . . . and prohibits a remote computing service from divulging the contents of communications carried or maintained on that service”); In
re Google Inc. Gmail Litig., 2013 U.S. Dist. LEXIS
172784, at *58 (observing that CIPA “prohibits wiretapping or ‘any other unauthorized connection’ with a
‘wire, line, cable, or instrument.’”).
In sum, Plaintiffs have established statutory
standing for claims under the Wiretap Act, SCA and
CIPA. The court is mindful, however, that the issue of
standing is distinct from whether or not Plaintiffs
have actually stated a plausible claim. In re Facebook
Privacy Litig., 791 F. Supp. 2d at 712 n. 5 (“A plaintiff
may satisfy the injury-in-fact requirements to have
standing under Article III, and thus may be able to
‘bring a civil action without suffering dismissal for
want of standing to sue,’ without being able to assert
a cause of action successfully.”). All other claims, however, will be dismissed with leave to amend for lack of
standing. Since this dismissal will encompass the
UCL, CLRA and CCCL claims, the court need not address Facebook’s argument under Rule 9(b).
B. Sufficiency of Allegations
The court now turns to whether Plaintiffs have
stated a plausible claim under the Wiretap Act, SCA
or CIPA.
i. The Wiretap Act and SCA
The Wiretap Act and SCA represent “two chapters” within the Electronic Communications Privacy
Act of 1986 (“ECPA”). In re Zynga Privacy Litig., 750
F.3d 1098, 1100 (9th Cir. 2014). Title I of the ECPA,

95a
which contains the Wiretap Act, “provides that (with
certain exceptions), ‘a person or entity’ (1) ‘providing
an electronic communication service to the public’ (2)
‘shall not intentionally divulge the contents of any
communication (other than one to such person or entity, or an agent thereof)’ (3) ‘while in transmission on
that service’ (4) ‘to any person or entity other than an
addressee or intended recipient of such communication or an agent of such addressee or intended recipient.’” Id. at 1104 (quoting 18 U.S.C. § 2511(3)(a)). Title II of ECPA is the SCA, which “covers access to electronic information stored in third party computers.”
Id. (citing 18 U.S.C. §§ 2701-12). Under the portion of
the SCA relevant here, “whoever (1) intentionally accesses without authorization a facility through which
an electronic communication service is provided; or
(2) intentionally exceeds an authorization to access
that facility; and thereby obtains, alters, or prevents
authorized access to a wire or electronic communication while it is in electronic storage in such system” is
subject to liability. 18 U.S.C. § 2701(a). For a civil action under the SCA, the conduct constituting the violation must have been done with “a knowing or intentional state of mind.” 18 U.S.C. § 2707(a).
Facebook argues the CCAC’s claim under the
Wiretap Act is insufficient because Plaintiffs did not
plead that Facebook intercepted the “contents” of an
electronic communication. Under the Wiretap Act, the
“contents” of a communication are defined as “any information concerning the substance, purport, or
meaning of that communication.” 18 U.S.C. § 2510(8).
The Ninth Circuit has held that as used in the Wiretap Act “the term ‘contents’ refers to the intended

96a
message conveyed by the communication, and does
not include record information regarding the characteristics of the message that is generated in the course
of the communication” such as a name, address, or the
identify of a subscriber or customer. In re Zynga Privacy Litig., 750 F.3d at 1106-1107. Applying this holding, the court went on to find that a “referer header” basically the portion of a webpage request message
that provides the address of the webpage from which
the request was sent - does not meet the Wiretap Act’s
definition of “contents.” Id. “[T]he webpage address
identifies the location of a webpage a user is viewing
on the internet, and therefore functions like an ‘address’ . . . . Congress excluded this sort of record information from the definition of ‘contents.’” Id.
For Plaintiffs’ Wiretap Act claim, Zynga Privacy
Litigation poses a significant hurdle. Although Plaintiffs do not specify just what information of theirs was
intercepted by Facebook, Plaintiffs generally allege
that, through cookies embedded on a user’s browser,
Facebook receives personal information about loggedout users information as well as the identity of the
webpages that the users visited. But since they also
allege in other portions of the CCAC that c_user and
datr cookies contain only a Facebook user’s unique
identification information and a record of browsing
history, they have not alleged that Facebook intercepted anything that qualifies as “content” under the
Wiretap Act. In turn, Plaintiffs have not stated a
claim under the statute. In fact, since the intercepted
information described in the CCAC is so similar to the
referer headers addressed in Zynga Privacy Litigation, Plaintiffs may never be able to state an action

97a
Wiretap Act claim, particularly since their arguments
on this issue are unpersuasive.
The SCA claim is also deficient. As relevant here,
“electronic storage” means “any temporary, intermediate storage of a wire or electronic communication
incidental to the electronic transmission thereof.” 18
U.S.C. § 2510(17)(A). The “language and legislative
history” of the definition “make evident” that “electronic storage” does include cookies stored on a user’s
computer; “[r]ather it appears that the section is specifically targeted at communications temporarily
stored by electronic communications services incident
to their transmission - for example, when an email
service stores a message until the addressee downloads it.” In re Doubleclick Privacy Litig., 154 F. Supp.
2d 497, 511-12 (S.D.N.Y. 2001); In re Toys R Us, Inc.,
Privacy Litig., No. M-00-1381 MMC, 2001 U.S. Dist.
LEXIS 16947, at *10-11, 2001 WL 34517252 (N.D.
Cal. Oct. 9, 2001). Plaintiff’s theory under the SCA as
it is currently described in the CCAC - that Facebook
accesses personal information through persistent
cookies permanently residing in users’ personal web
browsers - cannot be reconciled with the temporary
nature of storage contemplated by the statutory definition. The case upon which Plaintiffs rely, Doe v.
City and County of San Francisco, No. C10-04700
TEH, 2012 U.S. Dist. LEXIS 81305, 2012 WL 2132398
(N.D. Cal. Jun. 12, 2012), does not hold otherwise and,
in fact, is consistent with this discussion because the
“electronic storage” at issue there was a webmail inbox. Accordingly, Plaintiffs have not stated a claim for
violation of the SCA in the CCAC.

98a
ii. CIPA
The section of CIPA upon which Plaintiffs base
their claim, Penal Code § 631, establishes liability for:
[a]ny person who, by means of any machine, instrument, or contrivance, or in
any other manner, intentionally taps, or
makes any unauthorized connection,
whether physically, electrically, acoustically, inductively, or otherwise, with any
telegraph or telephone wire, line, cable, or
instrument, including the wire, line, cable,
or instrument of any internal telephonic
communication system, or who willfully
and without the consent of all parties to
the communication, or in any unauthorized manner, reads, or attempts to read, or
to learn the contents or meaning of any
message, report, or communication while
the same is in transit or passing over any
wire, line, or cable, or is being sent from,
or received at any place within this state.
Cal. Penal Code § 631(a).
Facebook challenges the CIPA claim on multiple
grounds, two of which are misplaced. It first contends
that this criminal statute should be narrowly construed and should not be applied to electronic communications. Because that argument has been made before and squarely rejected, the court rejects it again
here. In re Google Inc. Gmail Litig., 2013 U.S. Dist.
LEXIS 172784, at *76-79.

99a
Second, Facebook argues it cannot be considered
an unauthorized participant in the transmission of
Plaintiffs’ personal information because the process of
tracking their browsing activity involved communication with a Facebook server. This characterization of
the allegations is incomplete because Plaintiffs allege
they were unaware that Facebook was surreptitiously
tracking them after they logged out of the Facebook
website. Thus, while it is true that a Facebook server
was involved, there are no allegations in the CCAC
which demonstrate that Plaintiffs knew that fact
while their browsing activity was being tracked and
collected. The cases relied on by Facebook are inapposite because each involved recording by a known participant to a telephone conversation. See Warden v.
Kahn, 99 Cal. App. 3d 805, 808-809 (1979); see also
Rogers v. Ulrich, 52 Cal. App. 3d 894, 896 (1976).
Facebook’s third and fourth arguments are welltaken, however. Plaintiffs have not pled facts to show
how Facebook used a “machine, instrument, or contrivance” to obtain the contents of communications.
While it is undeniable that a computer may qualify as
a “machine,” Plaintiffs must complete the scenario by
explaining how Facebook’s cookies fall into one of the
three categories enumerated in the statute. To be
sure, the cookie is a required piece under Plaintiffs’
theory because the offensive transmission of information between two computers - the user’s computer
and the Facebook server - apparently does not occur
without it. Thus, if a cookie is truly a “contrivance” as
Plaintiffs contend, a word they define as a “device, especially a mechanical one” or “plan or scheme,” Plaintiffs must include facts in their pleading to show why

100a
it is so. In its current form, the CCAC only defines a
cookie as a small text file containing a limited amount
of information which sits idly on a user’s computer until contacted by a server.
Nor have Plaintiffs adequately alleged that Facebook obtained the contents of a communication attributable to any of them. The section of the CCAC
which does purport to provide Plaintiffs’ “specific factual allegations” is anything but specific. In essence,
it is just a list of the named plaintiffs coupled with the
same set generalized facts for each one. See CCAC, at
¶¶ 103-106. Such allegations do not suffice to “nudge”
their CIPA claim “across the line from conceivable to
plausible.” Iqbal, 556 U.S. at 680.
For these reasons, Plaintiffs have not stated a
CIPA claim.
IV. ORDER
Based on the foregoing, Facebook’s Motion to Dismiss (Docket Item No. 44) is GRANTED as follows:
1. The withdrawn claim for violation of the CFAA
is DISMISSED WITHOUT LEAVE TO AMEND.
2. The claims for invasion of privacy, intrusion
upon seclusion, conversion, trespass to chattels, and
for violation of the UCL, violation of the CCCL and
violation of the CLRA are DISMISSED WITH LEAVE
TO AMEND for lack of standing.
3. The claims for violation of the Wiretap Act, violation of the SCA and violation of CIPA are DISMISSED WITH LEAVE TO AMEND for failure to
state a claim.

101a
Facebook’s request for judicial notice (Docket Item
No. 45) is DENIED because this motion was resolved
without relying on those documents.
Any amended complaint must be filed on or before
November 30, 2015.
The court schedules this case for a Case Management Conference at 10:00 a.m. on January 14, 2016.
The parties shall file a Joint Case Management Conference Statement on or before January 7, 2016.
IT IS SO ORDERED.
Dated: October 23, 2015
/s/
EDWARD J. DAVILA
United States District Judge

102a
APPENDIX E
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
In re FACEBOOK, INC. INTERNET TRACKING LITIGATION,
PERRIN AIKENS DAVIS, et al.,
Plaintiffs-Appellants,
v.
FACEBOOK, INC.,
Defendants-Appellee.

No. 17-17486
D.C. No.
5:12-md-02314EJD
Northern District of California, San Jose
ORDER

Before: THOMAS, Chief Judge, M. SMITH, Circuit
Judge, and VRATIL*, District Judge.
The panel has voted to deny the petition for rehearing.
The full court has been advised of the petition for
rehearing en banc, and no judge of the court has requested a vote on the petition for rehearing en banc.
Fed. R. App. P. 35(b).
The petition for rehearing and the petition for
rehearing en banc are denied.

The Honorable Kathryn H. Vratil, United States District Judge
for the District of Kansas, sitting by designation.

*

103a
APPENDIX F
RELEVANT STATUTORY PROVISIONS
18 U.S.C. § 2511. Interception and disclosure of
wire, oral, or electronic communications prohibited.
(1) Except as otherwise specifically provided in this
chapter any person who-(a) intentionally intercepts, endeavors to intercept, or
procures any other person to intercept or endeavor to
intercept, any wire, oral, or electronic communication;
(b) intentionally uses, endeavors to use, or procures
any other person to use or endeavor to use any electronic, mechanical, or other device to intercept any
oral communication when-(i) such device is affixed to, or otherwise transmits
a signal through, a wire, cable, or other like connection used in wire communication; or
(ii) such device transmits communications by radio, or interferes with the transmission of such
communication; or
(iii) such person knows, or has reason to know,
that such device or any component thereof has
been sent through the mail or transported in interstate or foreign commerce; or
(iv) such use or endeavor to use (A) takes place on
the premises of any business or other commercial
establishment the operations of which affect interstate or foreign commerce; or (B) obtains or is for
the purpose of obtaining information relating to
the operations of any business or other commercial

104a
establishment the operations of which affect interstate or foreign commerce; or
(v) such person acts in the District of Columbia,
the Commonwealth of Puerto Rico, or any territory
or possession of the United States;
(c) intentionally discloses, or endeavors to disclose, to
any other person the contents of any wire, oral, or
electronic communication, knowing or having reason
to know that the information was obtained through
the interception of a wire, oral, or electronic communication in violation of this subsection;
(d) intentionally uses, or endeavors to use, the contents of any wire, oral, or electronic communication,
knowing or having reason to know that the information was obtained through the interception of a
wire, oral, or electronic communication in violation of
this subsection; or
(e)(i) intentionally discloses, or endeavors to disclose,
to any other person the contents of any wire, oral, or
electronic communication, intercepted by means authorized by sections 2511(2)(a)(ii), 2511(2)(b)-(c),
2511(2)(e), 2516, and 2518 of this chapter, (ii) knowing or having reason to know that the information was
obtained through the interception of such a communication in connection with a criminal investigation, (iii)
having obtained or received the information in connection with a criminal investigation, and (iv) with intent to improperly obstruct, impede, or interfere with
a duly authorized criminal investigation,
shall be punished as provided in subsection (4) or
shall be subject to suit as provided in subsection (5).

105a
(2)(a)(i) It shall not be unlawful under this chapter for
an operator of a switchboard, or an officer, employee,
or agent of a provider of wire or electronic communication service, whose facilities are used in the transmission of a wire or electronic communication, to intercept, disclose, or use that communication in the
normal course of his employment while engaged in
any activity which is a necessary incident to the rendition of his service or to the protection of the rights
or property of the provider of that service, except that
a provider of wire communication service to the public
shall not utilize service observing or random monitoring except for mechanical or service quality control
checks.
(ii) Notwithstanding any other law, providers of wire
or electronic communication service, their officers,
employees, and agents, landlords, custodians, or
other persons, are authorized to provide information,
facilities, or technical assistance to persons authorized by law to intercept wire, oral, or electronic communications or to conduct electronic surveillance, as
defined in section 101 of the Foreign Intelligence Surveillance Act of 1978, if such provider, its officers, employees, or agents, landlord, custodian, or other specified person, has been provided with-(A) a court order directing such assistance or a
court order pursuant to section 704 of the Foreign
Intelligence Surveillance Act of 1978 signed by the
authorizing judge, or
(B) a certification in writing by a person specified
in section 2518(7) of this title or the Attorney General of the United States that no warrant or court

106a
order is required by law, that all statutory requirements have been met, and that the specified assistance is required,
setting forth the period of time during which the provision of the information, facilities, or technical assistance is authorized and specifying the information, facilities, or technical assistance required. No provider
of wire or electronic communication service, officer,
employee, or agent thereof, or landlord, custodian, or
other specified person shall disclose the existence of
any interception or surveillance or the device used to
accomplish the interception or surveillance with respect to which the person has been furnished a court
order or certification under this chapter, except as
may otherwise be required by legal process and then
only after prior notification to the Attorney General
or to the principal prosecuting attorney of a State or
any political subdivision of a State, as may be appropriate. Any such disclosure, shall render such person
liable for the civil damages provided for in section
2520. No cause of action shall lie in any court against
any provider of wire or electronic communication service, its officers, employees, or agents, landlord, custodian, or other specified person for providing information, facilities, or assistance in accordance with the
terms of a court order, statutory authorization, or certification under this chapter.
(iii) If a certification under subparagraph (ii)(B) for
assistance to obtain foreign intelligence information
is based on statutory authority, the certification shall
identify the specific statutory provision and shall certify that the statutory requirements have been met.

107a
(b) It shall not be unlawful under this chapter for an
officer, employee, or agent of the Federal Communications Commission, in the normal course of his employment and in discharge of the monitoring responsibilities exercised by the Commission in the enforcement of chapter 5 of title 47 of the United States Code,
to intercept a wire or electronic communication, or
oral communication transmitted by radio, or to disclose or use the information thereby obtained.
(c) It shall not be unlawful under this chapter for a
person acting under color of law to intercept a wire,
oral, or electronic communication, where such person
is a party to the communication or one of the parties
to the communication has given prior consent to such
interception.
(d) It shall not be unlawful under this chapter for a
person not acting under color of law to intercept a
wire, oral, or electronic communication where such
person is a party to the communication or where one
of the parties to the communication has given prior
consent to such interception unless such communication is intercepted for the purpose of committing any
criminal or tortious act in violation of the Constitution or laws of the United States or of any State.
(e) Notwithstanding any other provision of this title
or section 705 or 706 of the Communications Act of
1934, it shall not be unlawful for an officer, employee,
or agent of the United States in the normal course of
his official duty to conduct electronic surveillance, as
defined in section 101 of the Foreign Intelligence Surveillance Act of 1978, as authorized by that Act.

108a
(f) Nothing contained in this chapter or chapter 121
or 206 of this title, or section 705 of the Communications Act of 1934, shall be deemed to affect the acquisition by the United States Government of foreign intelligence information from international or foreign
communications, or foreign intelligence activities conducted in accordance with otherwise applicable Federal law involving a foreign electronic communications system, utilizing a means other than electronic
surveillance as defined in section 101 of the Foreign
Intelligence Surveillance Act of 1978, and procedures
in this chapter or chapter 121 and the Foreign Intelligence Surveillance Act of 1978 shall be the exclusive
means by which electronic surveillance, as defined in
section 101 of such Act, and the interception of domestic wire, oral, and electronic communications may be
conducted.
(g) It shall not be unlawful under this chapter or chapter 121 of this title for any person-(i) to intercept or access an electronic communication made through an electronic communication
system that is configured so that such electronic
communication is readily accessible to the general
public;
(ii) to intercept any radio communication which is
transmitted-(I) by any station for the use of the general public, or that relates to ships, aircraft, vehicles, or
persons in distress;
(II) by any governmental, law enforcement,
civil defense, private land mobile, or public

109a
safety communications system, including police and fire, readily accessible to the general
public;
(III) by a station operating on an authorized
frequency within the bands allocated to the amateur, citizens band, or general mobile radio
services; or
(IV) by any marine or aeronautical communications system;
(iii) to engage in any conduct which-(I) is prohibited by section 633 of the Communications Act of 1934; or
(II) is excepted from the application of section
705(a) of the Communications Act of 1934 by
section 705(b) of that Act;
(iv) to intercept any wire or electronic communication the transmission of which is causing harmful
interference to any lawfully operating station or
consumer electronic equipment, to the extent necessary to identify the source of such interference;
or
(v) for other users of the same frequency to intercept any radio communication made through a
system that utilizes frequencies monitored by individuals engaged in the provision or the use of
such system, if such communication is not scrambled or encrypted.
(h) It shall not be unlawful under this chapter-(i) to use a pen register or a trap and trace device
(as those terms are defined for the purposes of

110a
chapter 206 (relating to pen registers and trap and
trace devices) of this title); or
(ii) for a provider of electronic communication service to record the fact that a wire or electronic communication was initiated or completed in order to
protect such provider, another provider furnishing
service toward the completion of the wire or electronic communication, or a user of that service,
from fraudulent, unlawful or abusive use of such
service.
(i) It shall not be unlawful under this chapter for a
person acting under color of law to intercept the wire
or electronic communications of a computer trespasser transmitted to, through, or from the protected
computer, if-(I) the owner or operator of the protected computer
authorizes the interception of the computer trespasser’s communications on the protected computer;
(II) the person acting under color of law is lawfully
engaged in an investigation;
(III) the person acting under color of law has reasonable grounds to believe that the contents of the
computer trespasser’s communications will be relevant to the investigation; and
(IV) such interception does not acquire communications other than those transmitted to or from the
computer trespasser.
(j) It shall not be unlawful under this chapter for a
provider of electronic communication service to the

111a
public or remote computing service to intercept or disclose the contents of a wire or electronic communication in response to an order from a foreign government that is subject to an executive agreement that
the Attorney General has determined and certified to
Congress satisfies section 2523.
(3)(a) Except as provided in paragraph (b) of this subsection, a person or entity providing an electronic
communication service to the public shall not intentionally divulge the contents of any communication
(other than one to such person or entity, or an agent
thereof) while in transmission on that service to any
person or entity other than an addressee or intended
recipient of such communication or an agent of such
addressee or intended recipient.
(b) A person or entity providing electronic communication service to the public may divulge the contents
of any such communication-(i) as otherwise authorized in section 2511(2)(a) or
2517 of this title;
(ii) with the lawful consent of the originator or any
addressee or intended recipient of such communication;
(iii) to a person employed or authorized, or whose
facilities are used, to forward such communication
to its destination; or
(iv) which were inadvertently obtained by the service provider and which appear to pertain to the
commission of a crime, if such divulgence is made
to a law enforcement agency.

112a
(4)(a) Except as provided in paragraph (b) of this subsection or in subsection (5), whoever violates subsection (1) of this section shall be fined under this title or
imprisoned not more than five years, or both.
(b) Conduct otherwise an offense under this subsection that consists of or relates to the interception of a
satellite transmission that is not encrypted or scrambled and that is transmitted-(i) to a broadcasting station for purposes of retransmission to the general public; or
(ii) as an audio subcarrier intended for redistribution to facilities open to the public, but not including data transmissions or telephone calls, is not an
offense under this subsection unless the conduct is
for the purposes of direct or indirect commercial
advantage or private financial gain.
[(c) Redesignated (b)]
(5)(a)(i) If the communication is-(A) a private satellite video communication
that is not scrambled or encrypted and the conduct in violation of this chapter is the private
viewing of that communication and is not for a
tortious or illegal purpose or for purposes of direct or indirect commercial advantage or private commercial gain; or
(B) a radio communication that is transmitted
on frequencies allocated under subpart D of
part 74 of the rules of the Federal Communications Commission that is not scrambled or encrypted and the conduct in violation of this

113a
chapter is not for a tortious or illegal purpose
or for purposes of direct or indirect commercial
advantage or private commercial gain,
then the person who engages in such conduct shall be
subject to suit by the Federal Government in a court
of competent jurisdiction.
(ii) In an action under this subsection-(A) if the violation of this chapter is a first offense for the person under paragraph (a) of subsection (4) and such person has not been found
liable in a civil action under section 2520 of this
title, the Federal Government shall be entitled
to appropriate injunctive relief; and
(B) if the violation of this chapter is a second or
subsequent offense under paragraph (a) of subsection (4) or such person has been found liable
in any prior civil action under section 2520, the
person shall be subject to a mandatory $500
civil fine.
(b) The court may use any means within its authority
to enforce an injunction issued under paragraph
(ii)(A), and shall impose a civil fine of not less than
$500 for each violation of such an injunction.
18 U.S.C. § 2520. Recovery of civil damages authorized.
(a) In general.--Except as provided in section
2511(2)(a)(ii), any person whose wire, oral, or electronic communication is intercepted, disclosed, or intentionally used in violation of this chapter may in a

114a
civil action recover from the person or entity, other
than the United States, which engaged in that violation such relief as may be appropriate.
(b) Relief.--In an action under this section, appropriate relief includes-(1) such preliminary and other equitable or declaratory relief as may be appropriate;
(2) damages under subsection (c) and punitive
damages in appropriate cases; and
(3) a reasonable attorney’s fee and other litigation
costs reasonably incurred.
(c) Computation of damages.--(1) In an action under
this section, if the conduct in violation of this chapter
is the private viewing of a private satellite video communication that is not scrambled or encrypted or if
the communication is a radio communication that is
transmitted on frequencies allocated under subpart D
of part 74 of the rules of the Federal Communications
Commission that is not scrambled or encrypted and
the conduct is not for a tortious or illegal purpose or
for purposes of direct or indirect commercial advantage or private commercial gain, then the court
shall assess damages as follows:
(A) If the person who engaged in that conduct
has not previously been enjoined under section
2511(5) and has not been found liable in a prior
civil action under this section, the court shall
assess the greater of the sum of actual damages
suffered by the plaintiff, or statutory damages
of not less than $50 and not more than $500.

115a
(B) If, on one prior occasion, the person who engaged in that conduct has been enjoined under
section 2511(5) or has been found liable in a
civil action under this section, the court shall
assess the greater of the sum of actual damages
suffered by the plaintiff, or statutory damages
of not less than $100 and not more than $1000.
(2) In any other action under this section, the court
may assess as damages whichever is the greater
of-(A) the sum of the actual damages suffered by
the plaintiff and any profits made by the violator as a result of the violation; or
(B) statutory damages of whichever is the
greater of $100 a day for each day of violation
or $10,000.
(d) Defense.--A good faith reliance on-(1) a court warrant or order, a grand jury subpoena, a legislative authorization, or a statutory
authorization;
(2) a request of an investigative or law enforcement officer under section 2518(7) of this title; or
(3) a good faith determination that section 2511(3),
2511(2)(i), or 2511(2)(j) of this title permitted the
conduct complained of; is a complete defense
against any civil or criminal action brought under
this chapter or any other law.
(e) Limitation.--A civil action under this section may
not be commenced later than two years after the date

116a
upon which the claimant first has a reasonable opportunity to discover the violation.
(f) Administrative discipline.--If a court or appropriate department or agency determines that the United
States or any of its departments or agencies has violated any provision of this chapter, and the court or
appropriate department or agency finds that the circumstances surrounding the violation raise serious
questions about whether or not an officer or employee
of the United States acted willfully or intentionally
with respect to the violation, the department or
agency shall, upon receipt of a true and correct copy
of the decision and findings of the court or appropriate
department or agency promptly initiate a proceeding
to determine whether disciplinary action against the
officer or employee is warranted. If the head of the department or agency involved determines that disciplinary action is not warranted, he or she shall notify the
Inspector General with jurisdiction over the department or agency concerned and shall provide the Inspector General with the reasons for such determination.
(g) Improper disclosure is violation.--Any willful disclosure or use by an investigative or law enforcement
officer or governmental entity of information beyond
the extent permitted by section 2517 is a violation of
this chapter for purposes of section 2520(a).

